<html>
<title> - BUFFALO SOLDIERS; PROTECTION OF PALEONTOLOGICAL RESOURCES; HIBBEN CENTER; BOUNDARIES AT GUNNISON; KRIS EGGLE CENTER; LEWIS AND CLARK CENTER; AND CARTER G. WOODSON HOME</title>
<body><pre>[Senate Hearing 108-69]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-69

   BUFFALO SOLDIERS; PROTECTION OF PALEONTOLOGICAL RESOURCES; HIBBEN 
  CENTER; BOUNDARIES AT GUNNISON; KRIS EGGLE CENTER; LEWIS AND CLARK 
                   CENTER; AND CARTER G. WOODSON HOME

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 499                                S. 1060

                           S. 546                                H.R. 255

                           S. 643                                H.R. 1012

                           S. 677                                H.R. 1577



                                     
                               __________

                             JUNE 10, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

88-535              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Council


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     6
Bereuter, Hon. Doug, U.S. Representative from Nebraska...........    29
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     7
Estill, Elizabeth, Deputy Chief, Programs, Legislation and 
  Communication, Forest Service, Department of Agriculture.......    21
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................     2
Hoekstra, Hon. Pete, U.S. Representative from Michigan...........    29
Kearney, Christopher, Deputy Assistant Secretary for Policy, 
  Management and Budget, Department of the Interior..............    17
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     2
Levin, Hon. Carl, U.S. Senator from Michigan.....................    27
McCain, Hon. John, U.S. Senator from Arizona.....................     2
Norton, Hon. Eleanor Holmes, Delegate from the District of 
  Columbia.......................................................     3
Ross, D. Thomas, Assistant Director, Recreation and Conservation, 
  National Park Service, Department of the Interior, accompanied 
  by Jesse Juen..................................................     8
Tancredo, Hon. Thomas G., U.S. Representative from Colorado......    30
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                APPENDIX

Additional material submitted for the record.....................    29
 
   BUFFALO SOLDIERS; PROTECTION OF PALEONTOLOGICAL RESOURCES; HIBBEN 
  CENTER; BOUNDARIES AT GUNNISON; KRIS EGGLE CENTER; LEWIS AND CLARK 
                   CENTER; AND CARTER G. WOODSON HOME
                              ----------                              


                         TUESDAY, JUNE 10, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order. Sorry I 
am a little late. We are glad you are here, and welcome 
representatives from the Departments of the Interior and 
Agriculture for today's National Parks Subcommittee hearing. 
Our purpose is to hear testimony regarding five Senate bills 
and three bills from the House, S. 499, a bill to authorize the 
American Battle Monuments Commission to establish in the State 
of Louisiana a memorial to honor the Buffalo Soldiers; S. 546, 
a bill to provide for the protection of resources on Federal 
lands; S. 643, a bill to authorize the Secretary of the 
Interior with the University of New Mexico to construct and 
occupy the Hibben Center for Archaeological Research; S. 677, a 
bill to revise the boundary of Black Canyon of the Gunnison 
Park in Colorado; S. 1060 and H.R. 1577, to designate a 
Visitors' Center at Oregon Pipe Cactus Monument in Arizona as 
Kris Eggle Visitor Center; H.R. 255, a bill to authorize the 
Secretary of the Interior to grant an easement to facilitate 
access to the Lewis and Clark Interpretive Center in Nebraska; 
and finally H.R. 1012, a bill to establish the Carter Woodson 
Home National Historic Site in the District of Columbia.
    I thank all the witnesses today from the agencies, and we 
are especially happy to have Representative Norton with us, if 
you would care to proceed, Representative.
    [A prepared statement from Senators Hagel, Kyl, and McCain 
follow:]
   Prepared Statement of Hon. Chuck Hagel, U.S. Senator From Nebraska
    Mr. Chairman, thank you for including H.R. 255 in today's hearing 
on national parks. I support H.R. 255, a House-passed resolution 
authorizing the Secretary of the Interior to grant an easement (to Otoe 
County, Nebraska) that will allow the county to build an access road to 
the Missouri River Basin Lewis and Clark Interpretive Trails and 
Visitors Center. The Visitors Center is now under construction at a 
site adjacent to Nebraska City, Nebraska. I offer this statement in 
support of this legislation.
    This legislation was originally introduced by my Nebraska House 
colleague, The Honorable Doug Bereuter during the 107th Congress, and 
was passed by the House on May 14, 2003.
    H.R. 255 will allow Otoe County to build an access road from State 
Highway Route 2 to the Lewis and Clark Interpretive Center. In May, I 
wrote a letter to the Subcommittee Chairman, Mr. Thomas, urging an 
expedited hearing process for this bill, as Congress had already 
authorized the construction of the Visitors Center in Nebraska City.
    To begin construction of the road, the Secretary of the Interior 
must grant an easement to the county. The cost of constructing and 
maintaining the road will be paid for with funds available to Otoe 
County, Nebraska. The National Park Service has informed Otoe County 
that it lacks the requisite authority to cede a road right-of-way. H.R. 
255 grants this authority.
    Over the next several years, millions of Americans are expected to 
travel across the country to sites along the Lewis and Clark trail, 
including the sites in Nebraska. The Nebraska City Lewis and Clark 
Interpretive Center will fill an important role during this 
bicentennial commemoration. It focuses on the flora and fauna that the 
explorers encountered during their travels.
    The Center in Nebraska City is scheduled to be completed in early 
2004 with the grand opening set for July 30, 2004. The opening will 
coincide with the Lewis and Clark signature event in Nebraska at 
historic Fort Atkinson, the site of the famous ``Council Bluff'' in 
Nebraska where Lewis and Clark had their first council with Native 
American leaders.
    H.R. 255 will play a very vital role in permitting access to the 
new Lewis and Clark Interpretive Center. I am pleased to support this 
legislation and ask my colleagues on the Senate Energy Committee to 
support this effort as well.
    Thank you.
                                 ______
                                 
     Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona

    Thank you, Chairman Thomas, for allowing me to say a word in 
support of S. 1060, legislation to rename the visitors' center at Organ 
Pipe Cactus National Monument in Arizona after Kris Eggle, a 28-year-
old National Park Service ranger who was killed in the line of duty on 
August 9, 2002. Kris was killed while pursuing an illegal drug smuggler 
from Mexico attempting to cross U.S. park lands.
    Kris was an outstanding young man from Cadillac, Michigan who was 
an Eagle Scout, National Honor Society student, and valedictorian of 
his 1991 graduating class at Cadillac High School.
    In his employment with the National Park Service, Kris was elected 
president of his class at the Federal Law Enforcement Training Center. 
He completed his work there at the top of his class, and was awarded 
the National Park Service Director's Award for outstanding achievement.
    Designating the visitors' center at Organ Pipe Cactus National 
Monument, Arizona, as the Kris Eggle Visitors' Center would be a 
fitting tribute to a dedicated public servant, and it would promote 
awareness of the great risks taken each day by the law-enforcement 
officers who patrol our public lands.
                                 ______
                                 
   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona

    Mr. Chairman and members of the Subcommittee, thank you for 
scheduling today's hearing to consider S. 1060, legislation to rename 
the visitors' center at Organ Pipe Cactus National Monument in Arizona 
after the brave law enforcement ranger who tragically lost his life in 
the line of duty, Kris Eggle.
    Kris Eggle was born and raised in Michigan where he grew up with 
honors in sports and academics. As a former Eagle Scout and athlete, he 
loved the outdoors and dedicated his life to public service as a 
National Park Service ranger. He served at the Sleeping Bear Dunes 
National Lakeshore and Organ Pipe Cactus National Monument where he was 
stationed in 2000. He was proud of his work, despite the dangers of his 
job, because he believed he was making a difference. Last August, at 
the young age of 28, Kris was brutally murdered while pursuing an 
illegal drug smuggler from Mexico attempting to cross U.S. park lands.
    The legislation I am sponsoring, along with Senators Stabenow and 
Levin, is a modest but important bill to recognize and commemorate not 
only the life of the brave officer, Kris Eggle, but also to utilize the 
visitors' center at the Park to develop an educational exhibit for park 
visitors to raise awareness about the risk and dedication of all public 
land management law enforcement officers.
    Working at a National Monument, National Park or Fish and Wildlife 
Refuge would not normally be considered a dangerous position; however, 
along the nation's borders in Arizona, public land officers often wear 
camouflage, carry assault rifles and chase drug smugglers as their 
position also involves the responsibility of serving in the front-line 
of war on drugs and illegal immigration. Organ Pipe Cactus National 
Monument, while renowned for its spectacular views of organ pipe cactus 
and desert terrain, is also among the most dangerous public parks along 
the border.
    I have visited the Arizona border many times, but during a recent 
trip, I was struck by the statement of a Fish and Wildlife officer 
working at the Buenos Aires National Wildlife Refuge who stated the 
problems of controlling the border very simply and emphatically, he 
said ``we do not have control of our border.'' We are in a crisis 
situation and more than words are necessary to ensure that other lives 
are not sacrificed.
    The family of Kris Eggle should realize that his work to protect 
the park and the U.S. border will not go unrecognized and will be a 
constant reminder of the nation's fundamental duty to homeland 
security. We ask an enormous responsibility and commitment from these 
young men and women, and we should answer that call with the highest 
protection and honor.
    S. 1060 is companion legislation to a bill that recently passed the 
House of Representatives, H.R. 1577, as sponsored by Representative 
Tancredo. Considering that the substance of the two bills is nearly 
identical, except for a few minor technical changes that are reflected 
in the House-passed bill, I am requesting that this subcommittee 
consider approving H.R. 1577 in order to move the legislation 
expeditiously.
    I am thankful to young people like Kris Eggle whom are committed to 
a public duty higher than their own self-interests, and I hope this 
Committee will move this legislation quickly so that all Americans can 
also leans his story and appreciate the commitment of these noble men 
and women.

           STATEMENT OF HON. ELEANOR HOLMES NORTON, 
             DELEGATE FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman, members of 
the committee. Mr. Chairman, may I first say how much I 
appreciate your moving so expeditiously on this bill after the 
House passed it last month. The bill would allow the National 
Park Service to take the home of a great American historian, 
Carter G. Woodson, and convert it into a site so that Americans 
could see his home.
    Carter G. Woodson was a remarkable man, the second African 
American to receive a Ph.D from Harvard University, and when 
you consider that he was born in 1875, you perhaps get some 
sense of what an outstanding scholar he was. His home is 
located in the historic Shaw area. Dr. Woodson not only 
discovered, as it were, African American history as a serious 
scholarly pursuit, he published his own works. It was a time in 
our country where few publishers would publish serious works of 
black history, and so he became, in addition to a historian of 
great repute, an entrepreneur who published his own books and 
journals and successfully marketed them.
    There is not a member of the House and the Senate who does 
not commemorate Black History Month in some way or the other. 
Black History Month stems from Negro History Week, which was 
started by Dr. Woodson as a way to encourage people to learn 
about black history and to study it. He invented American 
historiography, Black American historiography, and it became a 
serious subject under his leadership.
    Mr. Chairman, I am only going to summarize my testimony and 
ask that my full testimony be put in the record.
    Senator Thomas. It will be included.
    Ms. Norton. The National Park Service would administer this 
site the way it administers, for example, the Frederick 
Douglass Home. I am very pleased that this bill has already 
stimulated the rehabilitation of the entire block on which it 
is located in historic Shaw. The rest of the block is mostly 
owned by a historic church in our town, Shiloh Baptist Church. 
They are going to take the other townhouses and create senior 
independent living housing and keep the historic facade of the 
rowhouses just as the Carter G. Woodson House is kept.
    The house is already an architectural landmark. In 1976 it 
was declared a national historic landmark. It was built in 
1890. It is a three-story Victorian. Dr. Woodson himself was a 
remarkably brilliant and versatile American, and spent his 
entire life uncovering African American history and then 
created an organization, the Association for the Study of 
African American Life and History, which itself will be located 
in the house, the house in which he did his work, and so the 
house will be a lived-in home of black history, and I assure 
you, a place where many of the 20 million people who come to 
the District of Columbia will want to visit.
    We make a mockery of Black History Month by celebrating it 
every year when the home of Dr. Woodson is boarded up and in a 
shambles. Dr. Woodson was the son of former slaves, had no 
formal education in his native Canton, Virginia until he was 20 
years old, when he moved to West Virginia, went to Berea 
College, then got his bachelor's and master's at the University 
of Chicago, and then went on to Harvard.
    At the time that he wrote and did his work, there were 
widespread ignorance and overt and commonly demeaning racial 
stereotypes about African Americans, so he set out to do 
something about it, using his discipline and his training, and 
what, in effect, he did was to bring history to bear, where 
prejudice and racism had held sway, and ultimately, this kind 
of work cleared the way for civil rights legislation that was 
to pass decades later.
    The depth and breadth of Dr. Woodson's work is hard to 
overstate. He trained the researchers in this home. He 
organized the budget. He did the fundraising, and he did the 
scholarly work all in this home which is now crumbling, 
termites have invaded it, water seeps in, it is a fire hazard 
to the surrounding buildings. I believe that the passage of the 
Carter G. Woodson Home National Historic Site Establishment Act 
of 2003--the long name it has been given--would not only honor 
a great American scholar, it would continue to do what Dr. 
Woodson himself did, which was to help Americans discover and 
appreciate their own history.
    Thank you again, Mr. Chairman, for your work, for the 
adroit work of your staff, for the personal attention you have 
paid to this bill.
    [The prepared statement of Ms. Holmes Norton follows:]

           Prepared Statement of Hon. Eleanor Holmes Norton, 
                 Delegate From the District of Columbia

    Mr. Chairman, I very much appreciate your initiative in so quickly 
scheduling a hearing on H.R. 1012 to establish the Carter G. Woodson 
National Historic Site consisting of the home of the great American 
historian who almost single-handedly created the study of African-
American history as a serious discipline and initiated the appreciation 
of Black history now known as Black History Month. Dr. Woodson, only 
the second black Harvard Ph.D in our country did his groundbreaking 
scholarship and created and directed the Association for the Study of 
African-American Life and History (ASALH) from his home in the historic 
Shaw area of the District of Columbia that is the subject of this 
hearing. Remarkably, at a time when most publishers would not publish 
works of serious scholarship concerning black history, Dr. Woodson 
became an entrepreneur as well as a scholar, published his own books 
and journals, and successfully marketed them.
    Mr. Chairman, I dare say, there is not a Member of the House or 
Senate who does not commemorate in some way Black History Month 
annually in her state or his district. Yet, the home from which Dr. 
Woodson did his outstanding work here stands boarded up, as if to mock 
these celebrations. The Woodson home is a historic site because of the 
work that was done there and the influence of Dr. Woodson on American 
history and historiography and because his work helped bring changes in 
American attitudes concerning black people and ultimately changes in 
the legal status of African-Americans in our country.
    Congress passed my previous bill, H.R. 3201, the Carter G. Woodson 
Home National Historic Site Study Act, in 2000, to begin the process of 
making the property at 1538 Ninth Street, NW a national historic site 
within the jurisdiction of the National Park Service. The NPS study, as 
mandated by the legislation, is required before the NPS can take 
control of a property. The study determined that the Woodson Home is 
suitable and feasible for designation as a unit of the park system 
following the transfer of title from its current owner, the Association 
for the Study of African-American Life and History.
    The bill before the Senate, H.R. 1012, was passed by the House on 
May 14. It would authorize the NPS to ``preserve, protect and interpret 
for the benefit, education and inspiration of present and future 
generations'' the home where Woodson lived from 1915 to 1950. This 
legislation also authorizes the NPS to rehabilitate adjacent properties 
on either side of the home to facilitate tourism. ASALH, which Woodson 
founded, also would be housed on the site, as it was originally.
    I am particularly pleased that rehabilitation of the entire block 
has been stimulated by this legislation to rehabilitate the Woodson 
home. The NPS would work with Shiloh Community Development Corporation, 
established by Shiloh Baptist Church, which owns almost all of the 
property on the block of the Woodson home. The Shiloh Corporation 
intends to convert the block of homes to senior independent living 
housing, maintaining the historic facade of the row houses.
    The significance of Dr. Woodson's home was recognized in 1976, when 
it was designated as a National Historic Landmark. With the bill before 
you, an architectural landmark would be saved and preserved and the 
nation's pride and purpose in celebrating Black History Month would no 
longer be marred by neglect of the home of the founder of the 
commemoration and of the study of black history itself.
    Dr. Woodson himself was a remarkably brilliant, versatile American. 
He is recognized in his profession as a distinguished historian who 
established African-American history as a discipline and spent a 
lifetime uncovering the contributions of African-Americans to our 
nation's history. He founded and performed his work through the 
Association for the Study of Negro Life and History (ASNLH), which has 
since been renamed the Association for the Study of African-American 
Life and History. Among its enduring accomplishments, ASNLH, under Dr. 
Woodson's leadership, instituted Negro History Week in 1926, to be 
observed in February during the week of the birthdays of Abraham 
Lincoln and Frederick Douglass. Today, of course, Negro History Week, 
which was mostly celebrated in segregated schools, like my own here in 
the District when I was a child, and in Historically Black Colleges and 
Universities, has gained support and participation throughout the 
country among people of all backgrounds as Black History Month.
    The son of former slaves, Woodson's personal educational 
achievements were extraordinary in themselves, especially for a man who 
was denied access to public education in Canton, Virginia, where 
Woodson was born in 1875. As a result, Dr. Woodson did not begin his 
formal education until he was 20 years old after he moved to 
Huntington, West Virginia, where he received his high school diploma 
two years later. He then entered Berea College in Kentucky, where he 
received his bachelor's degree in 1897. Woodson continued his education 
at the University of Chicago, where he earned his A.B. and M.A. 
degrees, and then got his Ph.D from Harvard University.
    During much of Dr. Woodson's life, there was widespread ignorance 
and very little information concerning African-American life and 
history. With his extensive studies, Woodson almost single-handedly 
established African-American historiography.
    Dr. Woodson's research literally uncovered black history and helped 
to educate the American public about the contributions of African-
Americans to the nation's history and culture. Through painstaking 
scholarship and historical research, his work helped reduce the 
stereotypes captured in pervasively negative portrayals of black people 
that have marred our history as a nation. To remedy these stereotypes, 
Dr. Woodson in 1915, founded ASNLH. Through ASNLH, Dr. Woodson 
dedicated his life to educating the American public about the 
contributions of black Americans to the nation's history and culture. 
His work in bringing history to bear where prejudice and racism had 
held sway played an important role in reducing prejudice and making the 
need for civil rights remedies clear.
    To assure publication, under Dr. Woodson's leadership, ASNLH in 
1920 also founded the Associated Publishers, Inc. for the publication 
of research on African-American history. Dr. Woodson published his 
seminal work, The Negro in Our History (1922), and many others under 
Associated Publishers, and the publishing company provided an outlet 
for scholarly works by numerous other black scholars. ASNLH also 
circulated two periodicals: the Negro History Bulletin, designed for 
mass consumption, and the Journal of Negro History, which was primarily 
directed to the academic community.
    Out of his Ninth Street home, Dr. Woodson trained researchers and 
staff and managed the organization's budget and fundraising efforts 
while at the same time pursuing his own extraordinary discoveries in 
African-American history. The three-story Victorian style house, built 
in 1890, served as the headquarters of ASNLH into the early 70's, well 
after Dr. Woodson's death in 1950. However, it has been unoccupied 
since the early 80's, and today, it stands boarded up and badly in need 
of renovation. The walls inside the house are crumbling, there is 
termite infestation, water seeps through the roof during heavy 
rainstorms, and the house also constitutes a fire hazard jeopardizing 
adjacent buildings. This house is a priceless American treasure that 
must not be lost.
    Passage of the Carter G. Woodson Home National Historic Site 
Establishment Act of 2003 would not only honor a great American 
scholar. It would continue Dr. Woodson's seminal work of helping 
Americans to discover and appreciate their own history. Again, I 
appreciate your work, Mr. Chairman, in moving the bill toward that 
destination.

    Senator Thomas. Thank you very much. We appreciate your 
being here. Would you like an opening statement, Senator? If we 
have no questions, either of you, thank you very much, then, 
Representative Norton. We appreciate you coming.
    Ms. Norton. Thank you, Mr. Chairman.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Mr. Chairman, thank you for scheduling this 
hearing. This afternoon's agenda includes several bills 
affecting specific areas throughout the Nation. Some of these 
bills are from the last Congress, and for the most part, I feel 
they are noncontroversial. I hope we will be able to move them 
quickly through the committee and the Senate.
    I would like to take a moment to address one of the bills, 
and that was a bill left over from last year. It is S. 546, the 
Paleontological Resources Preservation Act. I introduced this 
bill earlier this year along with my colleagues, Senators 
Wyden, Campbell, and Feinstein on the committee. There 
currently are eight cosponsors. This bill is identical to 
legislation the committee considered last Congress. That bill 
was reported unanimously out of committee and passed the Senate 
by unanimous consent as part of a larger package of public land 
bills.
    Mr. Chairman, I introduced this bill to establish a 
national policy for managing and protecting fossil resources on 
Federal lands. The bill will help ensure a more consistent 
Federal policy instead of the patchwork of statutes and 
regulations that currently apply. S. 546 incorporates the 
recommendations of the Department of the Interior, the Forest 
Service, and the Smithsonian Institution in a report they 
issued 3 years ago assessing fossil management on Federal 
lands.
    While the intent of this bill is to provide a standardized 
Federal policy, it does not impose new restrictions on casual 
collecting on fossil resources. In fact, the bill specifically 
authorizes the land management agencies to allow casual 
collecting of common invertebrate and plant fossils without the 
need for a permit if it is consistent with applicable land 
management laws.
    During the committee mark-up process last Congress, we made 
several changes in response to concerns and suggestions made by 
the affected agencies and the public. While I believe we have 
addressed the primary issues, I would be pleased to work with 
members of the committee to clarify any other issues that may 
arise.
    Mr. Chairman, I ask unanimous consent to include several 
statements supporting the bill in the hearing record, including 
letters from the Society of Vertebrate Paleontology, the 
American Association of Museums, the Western Interior 
Paleontological Society, and Dry Dredgers, Incorporated, a 
group of amateur fossil collectors.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you very much.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. Thank you for 
holding this hearing and letting me speak to my bill, S. 677, 
that has somewhat of a long name, the Black Canyon of the 
Gunnison National Park and Gunnison Gorge National Conservation 
Area Boundary Revision Act of 2003.
    Senator Thomas. Ooh.
    [Laughter.]
    Senator Campbell. This bill continues on a bill that I 
started years ago, about 16 or 17 years ago, in fact, more than 
that, 18 years ago on the House side, and I worked 15 years to 
have it passed, which basically upgraded the Black Canyon of 
the Gunnison National Monument to national park status, and I 
appreciate your help in those years we worked on it together, 
and I am pleased that this bill that we are discussing here 
today expands the park and national conservation area, but I am 
particularly happy about the methods which are being proposed 
to allow the expansion to be done in a manner that certainly 
benefits the local landowners.
    This bill seeks to protect the critical view sheds and 
resources by working cooperatively with three local ranch 
families who have been good stewards of their land for years. 
Unfortunately, they have recently hit hard financial times, 
like many ranchers have Nationwide, Mr. Chairman, and have been 
considering selling off their parcels. However, to their credit 
and thinking forward, they put preserving the integrity of the 
park over subdividing the land and building condominiums. They 
have agreed not to sell outright, but instead to look forward 
to some rather innovative alternatives, thus requiring today's 
bill.
    In short, the three landowners in question entered into 
either equal-value land swaps or they agreed to conservation 
easements across their land. Their livelihoods are preserved 
within this legislation as well, since the legislation requires 
the grazing rights be retained throughout their lifetimes. As 
many of my colleagues know, nothing gets a Westerner's back up 
more than the question of water rights, so if they suspect 
water rights could be in jeopardy, it starts an immediate fight 
out West, as you know in your State, Mr. Chairman. That is why 
the language has been written into the bill to ensure the 
Bureau of Reclamation retains jurisdiction and access to water 
delivery facilities.
    My previous legislation did not intend to affect the Bureau 
of Reclamation jurisdiction in any way, and neither does this 
boundary modification today. The Black Canyon of the Gunnison 
Gorge is a national treasure. The park's combination of 
geological wonders and diverse wildlife make it one of the most 
unique natural areas in North America, so I certainly 
appreciate your doing the hearing and I look forward to the 
passage of this bill.
    Thank you, Mr. Chairman.
    Senator Thomas. Okay. Thank you, Senator.
    All right, we are ready now for panel 1, please. We have 
Thomas Ross, Assistant Director, Recreation and Conservation, 
National Park Service; Christopher Kearney, Deputy Assistant 
Secretary, Policy, Management and Budget, Department of the 
Interior; and Elizabeth Estill, Deputy Chief, Programs, 
Legislation and Communication, U.S. Forest Service, Department 
of Agriculture.
    Okay, Mr. Ross, would you like to begin, sir?

STATEMENT OF D. THOMAS ROSS, ASSISTANT DIRECTOR, RECREATION AND 
    CONSERVATION, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
              INTERIOR; ACCOMPANIED BY JESSE JUEN

    Mr. Ross. Yes, sir. Mr. Chairman, thank you for the 
opportunity to present the Department of the Interior's views 
on a number of bills, starting with S. 499. The Department 
supports efforts to honor the Buffalo Soldiers. However, in 
order to meet the President's initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our 
resources on caring for existing areas in the National Park 
System. As such, we cannot support the provision in S. 499 that 
could transfer the memorial to the National Park Service one 
year after the establishment. The Department believes it would 
be more appropriate for a memorial or monument commemorating 
the Buffalo Soldiers to be operated and maintained by the State 
of Louisiana, the city of New Orleans, or a suitable nonprofit 
corporation.
    Because of these concerns and others raised by the American 
Battle Monuments Commission, the administration recommends that 
Senate 499 not be enacted. We have no objection to the building 
of a memorial to the Buffalo Soldiers in New Orleans provided 
that an appropriate method of non-Federal financing and 
constructing of such a memorial is identified, and that it 
would be financed, operated and maintained by the State of 
Louisiana, the city of New Orleans, or a suitable nonprofit 
corporation.
    My next testimony, Mr. Chairman, is on S. 643, a bill to 
authorize the Secretary of the Interior, in cooperation with 
the University of New Mexico, to construct and occupy a portion 
of the Hibben Center for Archaeological Research at the 
University of New Mexico. The Department of the Interior 
supports S. 643 as the completion of the Hibben Center would be 
the final step in carrying out the Federal Government's 
responsibility for the protection of the archaeological 
resources that were collected during the Chaco Project in the 
1970's. Although there are significant costs associated with 
this legislation, the bill directly supports a key park mission 
by authorizing a better curatorial facility for park resources. 
This is consistent with protecting natural and cultural 
resources within the National Park System. This project will 
also involve partnership between two national parks, Chaco 
Culture National Historic Park, and Aztec Ruins National 
Monument.
    The next testimony, Mr. Chairman, is on S. 677, a bill to 
revise the boundary of the Black Canyon of the Gunnison 
National Park and Gunnison Gorge National Conservation Area in 
the State of Colorado and for other purposes. The Department of 
the Interior supports S. 677 with minor amendments to the 
legislation. The bill authorizes additions to both Black Canyon 
of the Gunnison National Park through three separate easement 
or exchange transactions in Gunnison Gorge National 
Conservation Area, NCA. We believe that the bill as introduced 
has a couple of confusing and unneeded sections, and we have 
identified that language in our testimony.
    The next testimony, Mr. Chairman, is on S. 1060 and H.R. 
1577 to designate the visitors' center at the Organ Pipe Cactus 
National Monument in Arizona as the Kris Eggle Visitor Center. 
The Department supports the legislation and appreciates the 
recognition by members of Congress for the work of all National 
Park Service employees, especially those involved in law 
enforcement.
    Both bills call for the visitors' center at Organ Pipe 
Cactus National Monument to be named for Kris Eggle. Kris was 
an outstanding young man, a dedicated NPS law enforcement 
officer who died in the line of duty nearly a year ago while 
assisting in the arrest and capture of drug smugglers crossing 
into the United States from Mexico.
    My next testimony, Mr. Chairman, is on H.R. 255 to 
authorize the Secretary of the Interior to grant an easement to 
facilitate access to the Lewis and Clark Interpretive Center. 
The Department supports H.R. 255 as passed by the House. This 
bill would grant an easement by the National Park Service to 
Otoe County, Nebraska, for the construction and maintenance of 
an access road from State and county roads to the Lewis and 
Clark Interpretive Trails and Visitors' Center in Nebraska 
City, Nebraska. The design, construction, and maintenance of 
this access road is to be done at no expense to the Federal 
Government.
    Finally, Mr. Chairman, my testimony will conclude with H.R. 
1012, a bill to establish the Carter G. Woodson Home National 
Historic Site in the District of Columbia. The Department 
recognizes the appropriateness of establishing the Carter G. 
Woodson Home as a unit of the National Park System. The site 
was found to be nationally significant, as well as suitable and 
feasible for addition to the system, in a study conducted by 
the National Park Service and sent to Congress earlier this 
year. However, we recommend that the committee defer action on 
H.R. 1012 during the 108th Congress.
    The administration is continuing to place a priority on 
reducing the National Park System's deferred maintenance 
backlog, and wants to ensure that funding is not diverted to 
pay for the cost of a new unit of the National Park System, 
which would include acquiring and rehabilitating property along 
with operating and maintaining the site.
    Mr. Chairman, that completes my testimony. I would be 
pleased to answer any questions you or the members of the 
committee may have.
    [The prepared statements of Mr. Ross follow:]

 Prepared Statement of D. Thomas Ross, Assistant Director, Recreation 
  and Conservation, National Park Service, Department of the Interior

                                 S. 499

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 499. This bill would authorize 
the American Battle Monuments Commission to establish a memorial in the 
State of Louisiana to honor the Buffalo Soldiers.
    The Department supports efforts to honor the Buffalo Soldiers. 
However, in order to meet the President's Initiative to eliminate the 
deferred maintenance backlog, we must continue to focus our resources 
on caring for existing areas in the National Park System. As such, we 
cannot support the provision in S. 499 that could transfer the memorial 
to the National Park Service one year after establishment. The 
Department believes that it would be more appropriate for a memorial or 
monument commemorating the Buffalo Soldiers to be operated and 
maintained by the State of Louisiana, the City of New Orleans, or a 
suitable nonprofit corporation. Because of these concerns, and others 
raised by the American Battle Monuments Commission, the Administration 
recommends that S. 499 not be enacted.
    S. 499 authorizes the American Battle Monuments Commission to 
establish a memorial to honor the Buffalo Soldiers on federal land in 
the city of New Orleans, Louisiana or its environs, or on land donated 
by the city or the State. The bill would require the Commission to 
solicit and accept contributions sufficient for the construction and 
maintenance of the memorial and would establish a fund in the U.S. 
Treasury for depositing and disbursing these contributions. One year 
after the establishment of the memorial, the Commission is authorized 
to transfer any remaining amounts in the fund and title to and 
responsibility for future operation and maintenance of the memorial to, 
at the option of the Commission, the National Park Service or another 
appropriate governmental agency or other entity.
    Following the Civil War, Congress passed legislation to increase 
the size of the Regular Army. On July 28, 1866, Congress raised the 
number of cavalry regiments from six to ten and the number of infantry 
regiments from nineteen to forty-five. The legislation stipulated that 
two of the new cavalry regiments and four of the new infantry regiments 
were to be composed of black men.
    In compliance with the new law, the Ninth and Tenth Cavalry 
Regiments and the Thirty-eighth, Thirty-ninth, Fortieth, and Forty-
first U. S. Infantry Regiments were organized. Three years later, when 
the army reduced the number of infantry regiments, these four new 
regiments were combined into the Twenty-fourth and Twenty-fifth U.S. 
Infantry.
    These regiments were composed of white officers with black enlisted 
men and were reportedly nicknamed Buffalo Soldiers by the American 
Indians. Soldiers comprising the black regiments came from the former 
United States Colored Troops that served in the Civil War, the New 
Orleans area, the fringes of the southern states, or large northern 
cities. They were former slaves as well as freedmen.
    Almost immediately after their establishment, units from these 
regiments were stationed throughout the West. In the countless battles 
and skirmishes that marked the frontier Indian Wars, the Buffalo 
Soldiers played a significant role. Commanded by white officers, who at 
times resented their duty with the black regiments, the Buffalo 
Soldiers endured and overcame tremendous social and environmental 
obstacles. They faced discrimination and sometimes received inferior 
supplies and equipment.
    The men in these regiments often found themselves in the forefront 
of action. For more than twenty-five years they not only engaged in 
battles with American Indians, but they built forts and escorted wagon 
trains, mail stages and railroad crews. Mapping and charting areas and 
locating sources of water, they were responsible for opening millions 
of square miles of western lands to peaceful settlement and 
development.
    Until recent times, the Buffalo Soldiers received little 
recognition for their years of service on the frontier. The record of 
meritorious service and notable accomplishments amassed by the Buffalo 
Soldier regiments remain a symbol of hope and pride for all Americans. 
Their achievements serve as a reminder of the contributions they made 
to American life and culture and are the subject of a memorial at Fort 
Leavenworth. We support the concept of honoring the excellent service 
to the nation of the Buffalo Soldiers through the existing Fort 
Leavenworth memorial and believe further effort to educate the public 
on their sacrifices is a worthy goal. We have no objection to the 
building of a memorial to the Buffalo Soldiers in New Orleans provided 
that an appropriate method of non-federal financing and constructing of 
such a memorial is identified and that it would be financed, operated, 
and maintained by the State of Louisiana, the City of New Orleans, or a 
suitable nonprofit corporation.

                                 S. 643

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 643, a bill to authorize the 
Secretary of the Interior, in cooperation with the University of New 
Mexico, to construct and occupy a portion of the Hibben Center for 
Archaeological Research at the University of New Mexico, and for other 
purposes.
    The Department of the Interior supports S. 643, as the completion 
of the Hibben Center would be the final step in carrying out the 
Federal government's responsibility for the protection the 
archeological resources that were collected during the Chaco Project in 
the 1970's. Although there are significant costs associated with this 
legislation, the bill directly supports a key park mission by 
authorizing a better curatorial facility for park resources. This 
legislation would authorize an appropriation of $3,772,000 for 
construction costs, tenant improvements and costs associated with a 
long-term lease for a portion of the Hibben Center at the University of 
New Mexico. The facility will provide for the protection of the 
cultural resources taken from Federal lands at Chaco Culture National 
Historical Park and Aztec Ruins National Monument. The project is 
currently on the National Park Service (NPS) five-year priority list 
for line item projects and passage of this legislation is necessary for 
Federal funds to be expended. There would be no additional annual 
operating or maintenance expenses to the Federal government beyond the 
existing level expended for the current substandard facilities.

                         HISTORY OF THE PROJECT

    Chaco Canyon and the University of New Mexico (UNM) have been 
partners since Chaco Canyon National Monument was founded in 1907. From 
1907 to 1949, the State of New Mexico owned sections of land within the 
monument's boundaries for the benefit of UNM. Since its Anthropology 
Department was founded in 1929, UNM has been a leader in Southwestern 
archaeology. The university conducted an archaeological field school in 
Chaco Canyon from 1929-1948 and excavated many important sites. 
Students from virtually every college in the country participated in 
these field schools. Dr. Frank C. Hibben was a teaching assistant at 
the UNM field school, and remained interested in Chaco throughout his 
long career. The UNM field schools produced extensive museum 
collections still held by UNM.
    In 1949, the university deeded its land to the United States 
government. Since then, the UNM-NPS partnership has continued through a 
series of formal agreements to conduct research and to care for the UNM 
and NPS Chaco museum collections. Since 1970, the main NPS Chaco 
collection has been housed on the UNM campus. Today the NPS Chaco 
Collection contains approximately 1.5 million artifacts, representing 
nearly 6,000 years of prehistory and history. In 1980, Congress 
expanded the monument's boundaries and created Chaco Culture National 
Historical Park to preserve and interpret Chacoan resources and to 
facilitate research. Chaco Canyon is on the National Register of 
Historic Places and in 1987 was designated a United Nations 
Educational, Scientific and Cultural Organization (UNESCO) World 
Heritage Site.
    For the past 100 years archeologists have considered Chaco Canyon 
to be one of the most important pre-Columbian archaeological regions in 
the United States. In 1970 Congress created the Chaco Project--a multi-
year, multi-disciplinary research partnership with the University of 
New Mexico to study Chacoan archaeology. The million-dollar project was 
the largest archaeological project in the country at that time, and it 
generated the bulk of the Chaco archaeological collections. However, 
the Chaco Project did not address the long-term storage needs of the 
collections. In 1983, UNM committed itself to providing temporary 
storage space for the collection until a joint UNM/NPS repository could 
be built. However, the UNM storage space was rapidly filled to 
capacity. Over the past 20 years, the collection (including office and 
work space) has spilled over into inappropriate and substandard spaces 
throughout the UNM campus.
    Both the NPS and UNM have long recognized that the storage 
facilities provided by UNM are inadequate and do not meet DOI standards 
for the care of archaeological collections. The need for a repository 
for the cultural resources has been acknowledged in numerous planning 
documents for Chaco Culture NHP and Aztec Ruins NM, including the Chaco 
Culture National Historical Park 1985 General Management Plan, 1987 
Memorandum of Agreement with the University of New Mexico, 1990 
Resource Management Plan and the 1993 Collections Management Plan. In 
1987, UNM and NPS museum staff began planning a new curation facility 
that would house the archaeological collections of both institutions 
and meet all federal standards. Finding funding for such a facility was 
the main stumbling block. In 1997, Dr. Hibben made a commitment of $3 
million to help fund a new research and curation facility at UNM, and 
he asked Chaco Culture NHP to partner with him. In 2001, the park's 
project to match Dr. Hibben's funding for a new curation facility was 
added to the NPS Line Item Construction Program for funding in FY 2003, 
pending Congressional authorization. In the FY 2004 priority list this 
project is slated for funding FY 2006.
    The Hibben Center for Archaeological Research was designed to sit 
adjacent to the UNM Maxwell Museum of Anthropology. The building is 
three stories with a full basement. During planning it was decided that 
UNM would occupy the basement and the ground floor; the NPS would 
occupy the entire second floor and three-fourths of the third floor. 
Due to Dr. Hibben's advanced age and failing health, UNM proceeded with 
the construction of the Hibben Center, which was dedicated in October 
2002, a few months after Dr. Hibben's death. Dr. Hibben's funds 
completed the building shell and build outs of the basement and ground 
floor. The NPS will build out the second and third floor with passage 
of S. 643.

                          NEED FOR THE PROJECT

    The current storage conditions of the world-class Chaco Museum 
Collection are substandard and pose a threat to the preservation and 
security of the artifacts and archives. The bulk of the archaeological 
collections are stored in a room in the UNM Anthropology Building, 
built in 1937. This room has no temperature or environmental controls, 
no smoke detection or fire suppression system, and only a rudimentary 
security system. Aging plumbing pipes that run through the ceiling of 
the room frequently leak, exposed phone and data lines pose a fire 
risk, and insect infestations are a constant problem. This space is 
currently at 99% capacity. The remainder of the NPS archaeology 
collection is housed in the Maxwell Museum warehouse. The conditions at 
the warehouse are the same, except there is no heating, cooling or 
ventilation system in the building at all. Lighting fixtures were 
finally added a few years ago. Due to the nature of the structure, 
rodent and insect infestations are an ongoing problem. Rodents have 
destroyed some of the Maxwell Museum's collections. This facility 
exceeded 100% capacity several years ago, and the 16' high wooden 
shelves are overloaded with boxes and are unsafe. The Chaco Museum 
Archive is housed on the third and floor levels in the stacks of UNM's 
Zimmerman Library, built in 1950. The stacks have no temperature or 
environmental controls, no fire suppression system, and no security 
system. The antiquated evaporative cooling system in the library 
fluctuates dramatically during the summer season, pouring excessively 
harmful humidity into the archive. Dust from the aging building covers 
everything. The main storage room has built-in structural shelving 
supports that are so closely spaced that map cases will not fit between 
them. One map case sits in a hallway because it will not fit through a 
narrow, non-code, non-ADA compliant emergency exit door. Flights of 
stairs link the archive storage room and the office, and there is no 
elevator access to the archive office.
    None of the storage areas meet DOI standards set forth in 36 CFR 
79, Curation of Federally-Owned and Administered Archeological 
Collections (1990) or NPS museum standards. The poor storage conditions 
contribute to the deterioration of the collection. The lack of adequate 
security puts the collection at risk especially given the large 
(25,000+ students), urban university setting. The lack of ADA access 
violates federal law. The dispersed storage, office, and workspaces 
make it impossible to efficiently and effectively manage or use the 
collection. The overcrowding of storage and workspaces makes providing 
research access, mandated by 36 CFR 79, extremely difficult.

                         BENEFIT OF THE PROJECT

    The NPS is committed to supporting the Department and Secretary 
Norton's 4 C's initiative of cooperation, consultation, and 
communication, all in the service of conservation and believe this 
project supports that goal. Partnerships are a cost-effective way of 
doing business. If the NPS were to construct a new facility on its own, 
it would cost more than three-and-a-half times as much. Under this 
project, the NPS will invest now in tenant improvements and will enter 
into a 40-year lease with UNM at a cost of $1 dollar per year. UNM will 
bear the annual operations and maintenance cost. As a result, the cost 
of this facility to the federal government, amortized over the forty-
year lease, will be $5.60 per square foot. A comparable GSA-leased 
space would cost $20.00 per square foot.
    This project will also involve a partnership between two NPS parks: 
Chaco Culture NHP and Aztec Ruins National Monument. These parks share 
the World Heritage Site designation because of their close 
archaeological relationship. Under this project, Aztec Ruins NM 
archaeological collections will also be stored in the Hibben Center, 
making research of Chacoan culture more centralized and efficient.
    In addition to the monetary benefits, this project will continue a 
collaboration which, since 1949, has been a model of Federal and state 
partnerships. The NPS will continue to benefit by having its Chaco 
Museum Collection housed in a research university setting, with the 
attendant advantages, while UNM will continue to benefit by having a 
World Heritage Site collection readily available to its faculty and 
students for research and training.

                                 S. 677

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 677, a bill to revise the 
boundary of the Black Canyon of the Gunnison National Park and Gunnison 
Gorge National Conservation Area in the State of Colorado, and for 
other purposes.
    The Department of the Interior supports S. 677 with minor 
amendments to the legislation. The bill authorizes additions to both 
Black Canyon of the Gunnison National Park (``Park''), through three 
separate easement or exchange transactions, and Gunnison Gorge National 
Conservation Area (``NCA''). The revision of the national park boundary 
would not contribute to the National Park Service (``NPS'') maintenance 
backlog because the management and operation of the land added to the 
boundary would not result in any additional facilities, increased 
operating costs, or additional staffing. Costs involved with the land 
transactions are expected to be minimal. One transaction would involve 
the purchase of a conservation easement on 26.5 acres, estimated to 
cost $100,000; however, there is the possibility the owner might donate 
all or a portion of the value. A second transaction would include an 
equal value exchange. The third involves the transfer of 480 acres of 
isolated Bureau of Land Management (BLM) land to the NPS and then the 
exchange of this parcel for a conservation easement on approximately 
2,000 acres. The landowner has stated he is willing to donate any 
difference in value.
    S. 677 amends the Black Canyon of the Gunnison National Park and 
Gunnison Gorge National Conservation Area Act of 1999 (Public Law 106-
76). The boundary of the park would be revised to include the addition 
of not more than 2,530 acres and the National Conservation Area (NCA) 
would be expanded by approximately 7,100 acres. These additions are 
reflected on a new map, dated April 2, 2003, which supplements the 
boundary map referenced in P.L. 106-76
    The bill authorizes the transfer of 480 acres of BLM land to the 
jurisdiction of NPS. The Secretary is authorized to acquire lands or 
interests in lands in accordance with P.L. 106-76 (by donation, 
transfer, purchase with donated or appropriated funds, or exchange) and 
lands cannot be acquired without the consent of the owner.
    S. 677 also amends P.L. 106-76 to clarify grazing privileges within 
the park. If land authorized for grazing within the park is exchanged 
for private land, then any grazing privileges would transfer to the 
private land that is acquired. Also, the bill clarifies the length of 
time that grazing may be conducted on park lands by partnerships.

               BLACK CANYON OF THE GUNNISON NATIONAL PARK

    The boundary of the park would be expanded in three transactions. 
The first, locally referred to as Sanburg II, is located just south of 
Red Rock Canyon, one of the most scenic hiking opportunities into the 
Black Canyon of the Gunnison. The landowner agrees with the NPS that 
maintaining the rural character adjacent to the Red Rock Canyon 
trailhead is an important part of the wilderness experience. The 
landowner has previously sold conservation easements in this area 
(authorized by P.L. 106-76 and a minor boundary revision) to The 
Conservation Fund, who subsequently sold to NPS. Once acquisition of a 
conservation easement on this 26.5 acre parcel is conveyed, the rural 
character of the Red Rock Canyon gateway will be insured.
    The second, the proposed Bramlett transaction, would authorize the 
exchange of a 200-acre parcel of the Bramlett Ranch located on Grizzly 
Ridge, which overlooks the North Rim Road and North and South Rim 
overlooks. Although the landowner has proposed building cabins on the 
ridge top, he is willing to exchange this 200-acre parcel for land of 
equal value within the park and adjacent to his ranch headquarters. The 
equal value exchange would give the landowner land with easier access, 
and would add the ridgeline parcel to the park, thus protecting the 
natural landscape in that portion of the park.
    The third boundary adjustment, the Allison exchange, is located 
along the East Portal Road, on the park's south rim. The landowner 
would exchange a combination of fee simple ownership and a conservation 
easement on up to 2,000 acres in return for fee simple ownership of up 
to 480 acres of the BLM parcel that would be transferred to NPS. The 
landowner has indicated that he would protect this parcel with a 
conservation easement should he acquire it. He has also indicated that 
he would donate any value above and beyond the value represented in the 
exchange.
    The Department believes these acquisitions are important for 
several reasons. Combined with the land authorized by P.L. 106-76, the 
present and future land requirements for the park would be met. The 
present landowners are all willing sellers and in addition to them, 
this effort enjoys the support of the Montrose County Commissioners, 
the Montrose Chamber of Commerce, and local and national land trusts 
involved in the project.
    S. 677 would also amend P.L. 106-76 regarding grazing within the 
park. P.L. 106-76 allowed for the continuation of grazing on the former 
BLM lands transferred to the NPS. Permits held by individuals can be 
renewed through the lifetime of the individual permittees. However, 
P.L. 106-76 requires that partnerships and corporations be treated 
alike regarding the termination of grazing permits. Partnerships and 
corporations now lose their permits upon the termination of the last 
remaining individual permit.
    S. 677 would amend P.L. 106-76 to treat partnerships similarly to 
individual permit holders, allowing permits to be renewed through the 
lifetime of the partners as of October 21, 1999. Since the two 
partnerships affected are essentially family run ranching operations, 
the Department feels that they should be treated consistently with 
individual permit holders.
    S. 677 would also allow grazing on land acquired in an exchange if 
the land being given up in the exchange currently has authorized 
grazing. This appears to be consistent with the intent of Congress when 
it authorized grazing in Public Law 106-76.

               GUNNISON GORGE NATIONAL CONSERVATION AREA

    S. 677 also provides for the expansion of the Gunnison Gorge NCA 
managed by the BLM. A 5,759-acre parcel of land on the north side of 
the existing NCA was acquired in January 2000 from a willing seller 
through a land exchange. This acquisition was not completed in time to 
include the lands within the original NCA boundary. This parcel 
includes approximately five miles of the Gunnison River and provides 
important resource values and recreational opportunities. In addition, 
1,349 acres of preexisting BLM-managed public lands adjacent to the 
acquisition would also be added to the NCA. The addition of these BLM 
lands will create a more manageable NCA boundary and provide 
appropriate protection and management emphasis for this area's 
resources.
    The legislation also makes some minor boundary adjustments to the 
NCA. In the process of completing surveys of the lands designated as 
the NCA by P.L. 106-76, the BLM discovered a few inadvertent trespass 
situations on the NCA land. In order to resolve these issues with the 
local landowners in a fair and equitable manner, slight boundary 
modifications need to be made so that exchanges can be effected. 
Without the benefit of this legislation, the BLM would be forced to 
take extreme punitive measures which are not in the best interest of 
the federal government or local landowners who previously were unaware 
of the encroachment issues.

                       WATER DELIVERY FACILITIES

    With the passage of Public Law 106-76 the Uncompahgre Valley Water 
Users Association expressed concern that access to water and related 
facilities might be limited. S. 677 clarifies that the Bureau of 
Reclamation will retain jurisdiction over and access to all land, 
facilities, and roads in the East Portal and Crystal Dam areas for the 
maintenance, repair, construction, replacement, and operation of any 
facilities relating to the delivery of water and power.
    We believe that the bill, as introduced, has a couple of confusing 
and unneeded sections. We have recommended some language to clarify 
these sections and request that S. 677 be amended to reflect these 
changes. Specifically, Section 4 (b) of the bill is repetitive of 
Section 5(a)(2) of Public Law 106-76. P.L. 106-76 states the methods by 
which the NPS may acquire lands and already requires that acquisition 
may only occur with willing sellers. We believe Sec. 4(b) of the bill 
will result in confusion when the language is enacted and codified. 
Therefore, we recommend eliminating this duplicative language. The 
proposed amendments are attached to the testimony.
    Technical and clarifying amendments to S. 677, Black Canyon of the 
Gunnison and Gunnison Gorge National Conservation Area Boundary 
Revision Act of 2003
    On page 2, line 13, strike ``2,725 acres'' and insert ``2,530 
acres''
    On page 2, line 16, strike ``dated January 21, 2003'' and insert 
``dated April 2, 2003''
    On page 2, strike lines 21 and 22, and insert ``(1) by striking 
``Upon enactment of this title, the Secretary shall transfer'' and 
inserting the following:''
    On page 2, strike line 24, and insert ``(A) IN GENERAL. On 
enactment of this title, the Secretary shall transfer''.
    On page 2, strike lines 25 and 26, and insert ``(2) by adding after 
the first sentence of subsection (b)(1)(A), as amended by paragraph 
(1), the following:''
    On page 3, strike line 11, and insert ``(3) by striking ``The 
Secretary shall administer'' and inserting ``(2) AUTHORITY. The 
Secretary shall administer''.
    On page 5, line 5, by striking ``(a) Authority to Acquire Lands.'' 
and
    On page 5, by striking lines 10 through 18.
    On page 6, line 9, strike ``dated January 21, 2003'' and insert 
``dated April 2, 2003''
    On page 6, by striking lines 11 through 22 and insert
    "The Commissioner of Reclamation shall have access to and retain 
administrative jurisdiction over the Crystal Dam Access Road and land, 
facilities, and roads of the Bureau of Reclamation in the East Portal 
area, including the Gunnison Tunnel, and the Crystal Dam area, as 
depicted on the maps identified in section 4 of the Black Canyon of the 
Gunnison National Park and Gunnison Gorge National Conservation Area 
Act of 1999 and section 2(a)(2) of this Act for the maintenance, 
repair, construction, replacement, and operation of any facilities 
relating to the delivery of water and power under the jurisdiction of 
the Bureau.''

                         S. 1060 AND H.R. 1577

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1060 and H.R. 1577, to 
designate the visitor center at Organ Pipe Cactus National Monument in 
Arizona as the ``Kris Eggle Visitor Center''.
    The Department supports the legislation and appreciates the 
recognition by members of Congress for the work of all National Park 
Service (NPS) employees, especially those involved in law enforcement.
    Both bills call for the visitor center at Organ Pipe Cactus 
National Monument to be named for Kris Eggle. Kris was an outstanding 
young man, a dedicated NPS law enforcement officer, who died in the 
line of duty nearly a year ago while assisting in the arrest and 
capture of drug smugglers crossing into the United States from Mexico.
    The legislation also calls for installing an interpretive sign at 
the visitor center and one at the Baker Mine-Milton Mine Loop 
trailhead. The signs will help inform and educate the public to the 
critical role law enforcement officers have in protecting visitors and 
resources on public lands. The signs will also dedicate the trail and 
center to Kris. The NPS has determined that the costs to add the 
appropriate signage to the visitor center and install the two exhibits 
will be approximately $15,000. Further costs to change maps, documents 
and other references to the visitor center will be incorporated when 
reprints are needed. None of these costs are presently part of the 
park's budget.
    Much has been said and talked about Kris' death. The death of 
anyone so young is tragic, and to lose someone under these 
circumstances is even more so--for his family, friends, co-workers and 
all who care for and about National Parks. By helping the public 
understand the work and dedication of NPS law enforcement rangers and 
all NPS employees--through well-planned and designed educational 
exhibits and signs, perhaps we can prevent or minimize some of the 
dangers we all face in protecting these great American places and 
stories.
    S. 1060 and H.R. 1577 are nearly identical. There are some 
differences in style and format. S. 1060 does contain a grammatical 
error that was corrected in the House bill. All references to 
``visitors' center'' should read ``visitor center''. We look forward to 
working with this committee and the House to reach consensus on the 
language that will allow us to remember this fine young man.

                                H.R. 255

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on H.R. 255, a bill to authorize the 
Secretary of the Interior to grant an easement to facilitate access to 
the Lewis and Clark Interpretive Center.
    The Department supports H.R. 255 as passed by the House. The bill 
would grant an easement by the National Park Service (NPS) to Otoe 
County, Nebraska for the construction and maintenance of an access road 
from state and county roads to the Lewis and Clark Interpretive Trails 
and Visitors Center in Nebraska City, Nebraska. The design, 
construction, and maintenance of the access road is to be done at no 
expense to the Federal government.
    The Lewis and Clark Interpretive Center is currently under 
construction. It is scheduled to be completed in early 2004 with the 
grand opening set for July 30, 2004. This coincides with the Lewis and 
Clark signature event in Nebraska. The center will display the flora 
and fauna documented by the Lewis and Clark expedition across the 
country. The NPS recommended that the center be located in Nebraska 
City in 1991. That same year, the Park Service acquired a 65-acre tract 
of land for the center, a site adjacent to Nebraska City, Nebraska.
    H.R. 255 would facilitate the granting of an easement necessary to 
create an access road across public land to link the center to the main 
roads in the area. NPS would grant the easement to the Otoe County 
government so that the county can construct and maintain the road to 
the visitor center. When completed, this access road would provide the 
access from both Nebraska State Highway 2 and Otoe County Road 67 for 
those visitors to the Missouri River Basin Lewis & Clark Interpretive 
Trails & Visitors Center. The bicentennial commemoration of the Lewis 
and Clark Corps of Discovery is expected to draw millions of Americans 
to sites along the trail over the next several years. This new center, 
a permanent facility, will be one of the stops many will make along the 
trail.

                               H.R. 1012

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1012, a bill to establish 
the Carter G. Woodson Home National Historic Site in the District of 
Columbia.
    The Department recognizes the appropriateness of establishing the 
Carter G. Woodson home as a unit of the National Park System. The site 
was found to be nationally significant, as well as suitable and 
feasible for addition to the system, in a study conducted by the 
National Park Service and sent to Congress earlier this year. However, 
we recommend that the committee defer action on H.R. 1012 during the 
108th Congress. The Administration is continuing to place a priority on 
reducing the National Park System's deferred maintenance backlog and 
wants to ensure that funding is not diverted to pay for the cost of a 
new unit of the National Park System, which would include acquiring and 
rehabilitating property along with operating and maintaining the site.
    Dr. Carter G. Woodson was a prominent American historian and is 
generally considered the preeminent historian of the African-American 
experience in the United States. Born in 1875 to former slaves, Woodson 
began his formal education at age 20 after being denied a public 
education in his home town of Canton, Virginia, and earned several 
degrees from institutions of higher learning. He became the second 
African-American, after W.E.B. DuBois, to earn a doctorate from 
Harvard. During much of Dr. Woodson's life, there was little 
information about African-American life and history. Dr. Woodson's 
research uncovered history that helped educate the American public 
about the contributions of African Americans to our Nation's history 
and culture.
    From 1915 until 1950, Dr. Woodson lived at 1538 Ninth Street, 
Northwest, a Victorian-style row house built in 1890 in the Shaw 
neighborhood of Washington, D.C. His home was also the headquarters of 
the Association for the Study of Negro Life and History, which he 
founded. The organization, which was renamed the Association for the 
Study of African-American Life and History, continued to operate out of 
the home until 1970. The association still owns the home, but it is 
unoccupied and in need of restoration. The home was designated a 
National Historic Landmark in 1976.
    The National Park Service conducted a special resource study on the 
Carter G. Woodson home during 2001-2002, pursuant to P.L. 106-349. The 
study found that in addition to being nationally significant, the site 
was suitable and feasible for inclusion in the National Park System. 
The suitability finding was based on the determination that no existing 
unit of the National Park System provides the opportunity to present 
the story of Dr. Woodson and his legacy, or interprets African-American 
history as a general subject. It was also based on the fact that the 
home offers the chance to interpret other aspects of the community in 
which Dr. Woodson worked and lived, which has numerous historically 
significant resources associated with achievements of African-
Americans. The site was found feasible for inclusion, with 
qualifications. Along with acquiring the Woodson house itself, to make 
this a viable park unit, the National Park Service would need to 
acquire three adjacent properties to the north for administrative, 
interpretive, and visitor service needs, and to meet accessibility 
requirements. The study estimates that the one-time cost of acquiring 
and developing the site would be in the range of $5 million to $6.5 
million, and the annual cost of operating and maintaining the site 
would be approximately $500,000.
    H.R. 1012 provides authority for the Secretary of the Interior to 
establish the Carter G. Woodson home as a national historic site after 
acquiring a majority of the property within the proposed boundary of 
the unit. The boundary encompasses the Woodson home and the three 
adjoining houses to the north. The bill also authorizes the Secretary 
to enter into certain agreements. One agreement would be with the 
Shiloh Community Development Corporation to redevelop the property. 
This corporation is a non-profit organization that intends to build 
senior housing on the same block as the Woodson home; discussions have 
begun between the National Park Service and the corporation about a 
potential development partnership which holds the possibility of 
providing a cost-effective means of restoring the property.
    Another potential agreement permitted by the bill would enable the 
Association for the Study of African-American Life and History to use a 
portion of the historic site for its own administrative purposes. The 
bill would also allow partnerships with public and private entities for 
the purpose of fostering interpretation of African-American heritage in 
the Shaw area. This provision is intended to facilitate connection of 
the Woodson home to other significant historical and cultural sites in 
the area for purposes of promoting education and tourism. These 
provisions are all consistent with the findings of the study.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions that you or other members of the committee may 
have.

    Senator Thomas. Thank you. Thank you for your brevity. 
That's good.
    Then let's go to Mr. Kearney.

 STATEMENT OF CHRISTOPHER KEARNEY, DEPUTY ASSISTANT SECRETARY 
 FOR POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Mr. Kearney. Thank you, Mr. Chairman. Good afternoon. Thank 
you for the opportunity to present the Department of the 
Interior's views on S. 546, the Paleontological Resources 
Preservation Act. The Department supports the purpose of the 
bill, but would like to work with the committee on amendments 
that we provide at the end of our testimony.
    In recent years, public interest in fossils has grown 
rapidly, and with this interest, the commercial values of 
fossils has also increased. The unfortunate consequence has 
been a loss of fossils from Federal lands through theft and 
vandalism and from the United States itself through 
international trafficking. These crimes reduce scientific and 
public access to scientifically significant and instructive 
fossils, and destroy the contextual information critical for 
interpreting the fossils.
    Under the agency's existing regulations and policies, 
vertebrate fossils may only be collected from lands under their 
respective jurisdictions with a permit for scientific and 
educational purposes. S. 546 would codify this collection 
policy and standardize the permitting requirements among the 
various agencies. It would ensure that these fossils are 
retained as public property and carried in suitable 
repositories for current and future generations of scientists 
and the public to study and enjoy.
    Scientists use the information from specimens and 
repository collections to build our understanding of the 
history of life and physical environment on earth. Millions of 
visitors enjoy the displays offered by public repositories of 
the most spectacular and educational fossils. Many are obtained 
from public lands.
    One exception to the permitting requirements under S. 546 
is for the casual collection of certain paleontological 
resources for personal, scientific, educational and 
recreational uses. This important provision would authorize the 
Secretary to allow the public to casually collect common 
invertebrate and plant fossils without a permit on certain 
Federal lands.
    In other words, under this bill, visitors to lands who 
enjoy paleontology as a hobby could continue to collect for 
their personal use a wide variety of plant and common 
invertebrate fossils. The casual collection of such fossils can 
be an important component of the public's enjoyment of some 
Federal lands and is generally consistent with scientific and 
educational goals. S. 546 would codify the Land Management 
Agency's existing prohibition on commercial fossil collecting 
from Federal lands, and by prohibiting such collection, this 
legislation ensures that vertebrate fossils on Federal lands 
remain in public hands, that they are not bought or sold, and 
that the Federal Government does not have to use taxpayer funds 
to purchase the resources, purchase fossils found on lands it 
owns.
    In conclusion, Mr. Chairman, we look forward to working 
with the committee on our remaining questions with respect to 
amendments, and would be happy to answer any questions that you 
may have.
    [The prepared statement of Mr. Kearney follows:]

 Prepared Statement of Christopher Kearney, Deputy Assistant Secretary 
     for Policy, Management and Budget, Department of the Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 546, the Paleontological 
Resources Preservation Act. The Department supports the purpose of S. 
546 to protect paleontological resources on federal lands but would 
like to work with the Committee on the amendments provided at the end 
of this testimony.
    S. 546 adopts the recommendation of a report submitted to Congress 
in May 2000, titled ``Fossils on Federal and Indian Lands'' (the 
Interagency Fossil Report). Concerned about the lack of unified 
policies and standards for the management of fossils on federal lands 
and the resulting deterioration and loss of fossils, Congress directed 
the Bureau of Indian Affairs, the Bureau of Land Management, the Bureau 
of Reclamation, the Fish and Wildlife Service, the Forest Service, the 
National Park Service, the Smithsonian Institution and the U.S. 
Geological Survey to develop a report assessing the need for a unified 
federal management policy. During development of the report, three 
major themes emerged from the public comments received.
    First, a majority of people who commented viewed fossils on federal 
lands as part of America's heritage. Second, they recommended that 
vertebrate fossils continue to be protected as rare and within the 
ownership of the federal government. Third, they supported the 
involvement of amateurs in the science and enjoyment of fossils, 
including the availability of most plant and invertebrate fossils for 
casual collection on lands managed by the Bureau of Land Management and 
the Forest Service. To meet these and other goals, the report 
recommended the establishment of a framework for fossil management, 
analogous to the Archeological Resources Protection Act of 1979 (ARPA).
    Fossils are non-renewable resources which, with the exception of 
microfossils and those that make up commercially developed minerals, 
such as coal, are relatively rare and have significant scientific, 
educational and recreational values. Federal lands, the majority of 
which are in the western part of the United States, contain a rich 
array of plant, invertebrate and vertebrate fossils. For more than a 
century, land management agencies have managed fossils within their 
unique missions. These agencies have protected all vertebrate fossils, 
requiring permits for their excavation and removal, with the 
stipulation that the resources remain in federal ownership in 
perpetuity.
    In recent years, public interest in fossils has grown rapidly and 
with this interest, the commercial value of fossils also has increased. 
The unfortunate consequence has been a loss of fossils from federal 
lands, through theft and vandalism, and from the United States itself, 
through international trafficking. These crimes reduce scientific and 
public access to scientifically significant and instructive fossils and 
destroy the contextual information critical for interpreting the 
fossils.
    S. 546 would provide a unified federal policy to ensure that 
scientifically significant fossils on certain federal lands are 
inventoried, monitored, protected, and curated consistently, while 
accommodating the agencies' distinct missions. The provisions in this 
bill do not apply to Indian lands. As we understand it, the bill, in 
large measure, reflects the current practice of agencies in the 
management of fossils on federal land. Streamlining the practices of 
the various land management agencies into a unified approach will 
enhance overall management of fossils on federal lands by reducing 
public confusion and improving collaboration and cooperation among 
agencies, scientists, and the public.
    Under the agencies' existing regulations and policies, vertebrate 
fossils may only be collected with a permit for scientific and 
educational purposes. S. 546 would codify this collection policy and 
standardize the permitting requirements among the various agencies, as 
recommended in the Interagency Fossil Report. It would ensure that 
these fossils are retained as public property and curated in suitable 
repositories for current and future generations of scientists and the 
public to study and enjoy. Scientists use the information from 
specimens in repository collections to build on our understanding of 
the history of life and physical environment on Earth. Millions of 
visitors enjoy the displays offered by public repositories of their 
most spectacular and educational fossils, many originating from federal 
lands.
    One exception to the permitting requirements under S. 546 is for 
casual collection of certain paleontological resources for personal, 
scientific, educational and recreational uses. This important provision 
would authorize the Secretary to allow the public to casually collect 
common invertebrate and plant fossils without a permit on certain 
federal lands. In other words, under this bill, visitors to BLM lands 
who enjoy paleontology as a hobby could continue to collect and keep 
for their personal use a wide variety of plant and common invertebrate 
fossils. The casual collection of such fossils can be an important 
component of the public's enjoyment of some federal lands and is 
generally consistent with scientific and educational goals.
    S. 546 would codify the land managing agencies' existing 
prohibition on commercial fossil collecting from federal lands. By 
prohibiting such collecting, this legislation ensures that vertebrate 
fossils on federal lands, a rich part of America's heritage, remain in 
public hands, that they are not bought or sold, and that the federal 
government does not have to use taxpayer funds to purchase fossils 
found on lands that it owns.
    S. 546 would provide additional protection by prohibiting the 
excavation, damage, transport or sale of paleontological resources 
located on federal lands. Criminal penalties for these acts would be 
set by classification, following fine and imprisonment penalties 
imposed under federal law.
    Keeping an appropriate inventory and monitoring are crucial 
components of fossil management. S. 546 would provide the Secretary 
with the flexibility to keep an inventory and monitor exposed fossils 
based on the site-specific geology and paleontology of their management 
units. The exposure of fossils by erosion varies, based on the type of 
rock in which they are found and local climate. Some fossils remain 
exposed at the surface for decades or centuries, while others weather 
away soon after exposure depending on the nature of their preservation.
    S. 546 would balance the need for public access to fossils with the 
recognition that the unlimited disclosure of certain information about 
particularly significant fossils can lead to the theft or vandalism of 
those fossils. In the National Parks Omnibus Management Act of 1998, 
Congress authorized the National Park Service to withhold information 
about the nature and specific location of paleontological resources in 
park units unless certain criteria were met. S. 546 would extend this 
same authority to the other federal land managing agencies.
    Last Congress, the Department testified before this Committee in 
support of the purpose of S. 2727, a similar bill, while also citing a 
number of concerns. After the hearing, the Department provided the 
Committee with general comments and suggested amendments to address our 
concerns with the bill. We appreciate that S. 546, as introduced, 
includes the vast majority of our proposed amendments. At the end of 
this testimony, we offer additional amendments for the Committee's 
further consideration. We look forward to working with the Committee on 
these remaining issues.
    As the prices of fossils rise, the federal land managing agencies 
will be under increasing pressure to both protect scientifically 
significant fossil resources and to ensure their appropriate 
availability to the general public. S. 546 would create a single 
legislative framework for paleontological resource management that will 
facilitate sharing of resources, personnel and partnership 
opportunities across agency lines.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.

                     Proposed Amendments for S. 546

    On p. 3, line 1, after ``personal'' strike ``(`` insert '',''.
    On p. 3, line 2, after ``recreational'' strike '')''.
    On p. 3, line 13, after ``means lands'' insert ``owned, controlled, 
or''.

          --clarifies the bill's inclusion of all lands (except Indian 
        lands) managed by the Departments

    On p. 4, line 14, strike ``Rehabilitation'' insert ``Repatriation"
    On p. 5, line 17, after ``Federal lands'' insert ``owned, 
controlled, or''.

          --clarifies generally where casual collecting may be allowed

    On p. 8, line 4, after ``permit'' insert ``issued under this Act''.

          --ensures that the permit referenced is the permit 
        established under this Act

    On p. 8, line 8, after ``Acts;'' insert ``Criminal"

          --clarifies that Section 9 addresses criminal penalties, in 
        contrast with Section 10 which addresses civil penalties

    On p. 9, line 8, strike ``Penalities'' insert ``Penalties"
    On p. 10, line 19, after ``involved.'', insert '', as determined by 
the Secretary.''.
    On p. 11, line 12, strike entire subsection (b), insert:

          ``(b) PETITION FOR JUDICIAL REVIEW; COLLECTION OF UNPAID 
        ASSESSMENTS.
          (1) JUDICIAL REVIEW--Any person against whom an order is 
        issued assessing a penalty under subsection (a) may file a 
        petition for judicial review of the order in the United States 
        District Court for the District of Columbia or in the district 
        in which the violation is alleged to have occurred within the 
        30-day period beginning on the date the order making the 
        assessment was issued. The Secretary shall promptly file in 
        such court a certified copy of the record on which the order 
        was issued. The court shall hear the action on the record made 
        before the Secretary and shall sustain the action if it is 
        supported by substantial evidence on the record considered as a 
        whole.
          (2) FAILURE TO PAY--If any person fails to pay a penalty 
        under this section within thirty (30) days-

                  (A) after the order making the assessment has become 
                final and the person has not filed a petition for 
                judicial review of the order in accordance with 
                paragraph (1); or
                  (B) after a court in an action brought in paragraph 
                (1) has entered a final judgment upholding the 
                assessment of the penalty,

the Secretary may request the Attorney General to institute a civil 
action in a district court of the United States for any district in 
which the person is found, resides, or transacts business, to collect 
the penalty (plus interest at currently prevailing rates from the date 
of the final order or the date of the final judgment, as the case may 
be). The district court shall have jurisdiction to hear and decide any 
such action. In such action, the validity, amount, and appropriateness 
of such penalty shall not be subject to review. Any person who fails to 
pay on a timely basis the amount of an assessment of a civil penalty as 
described in the first sentence of this paragraph shall be required to 
pay, in addition to such amount and interest, attorneys fees and costs 
for collection proceedings.

          --is the standard enforcement provision found in other laws 
        including the Clean Water Act

    On p. 13, line 8, strike ``may be subject to forfeiture...involved 
in the violation.'' insert

          ``shall be subject to civil forfeiture, or upon conviction, 
        to criminal forfeiture. All provisions of law relating to the 
        seizure, forfeiture, and condemnation of property for a 
        violation of this Act, the disposition of such property or the 
        proceeds from the sale thereof, and remission or mitigation of 
        such forfeiture, as well as the procedural provisions of 
        Chapter 46 to Title 18, United States Code, shall apply to the 
        seizures and forfeitures incurred or alleged to have been 
        incurred under the provisions of this Act.''.

          --makes a distinction between civil forfeiture and ensures 
        that criminal forfeiture only could occur upon conviction -
        makes clear that the protections of the Civil Asset Forfeiture 
        Reform Act (CAFRA), an act to provide a more just and uniform 
        procedure for Federal civil forfeitures, would apply

    On p. 13, after line 17, insert new (c):

    ``(c) TRANSFER OF SEIZED RESOURCES. The Secretary is authorized to 
transfer ownership or administration of seized paleontological 
resources to Federal or non-Federal educational institutions to be used 
for scientific or educational purposes.''

          --allows the establishment of partnerships with schools and 
        other entities to transfer seized resources (for example, some 
        resources that are recovered with no record of their context 
        may have lost value to a museum, but may still have educational 
        value)

    On p. 13, after line 18, strike entire section and insert:

          ``(a) Information concerning the nature or specific location 
        of a paleontological resource the collection of which requires 
        a permit under this Act or under any other provision of Federal 
        law shall be withheld from the public

                  (1) in response to a request under subchapter II of 
                chapter 5 of title 5, United States Code; or
                  (2) notwithstanding any other provision of law that 
                would authorize release.

          (b) The information described in subsection (a) shall be 
        released if the responsible Secretary determines that 
        disclosure would

                  (1) further the purposes of the Act;
                  (2) not create a risk of harm to or theft or 
                destruction of the resource or the site containing the 
                resource; and
                  (3) be in accordance with other applicable laws.''

    On p. 15, line 3, after ``time'' insert ``under''.

    Senator Thomas. Thank you.
    Ms. Estill.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
 LEGISLATION AND COMMUNICATION, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Ms. Estill. Well, thank you for the opportunity to be here 
today. I will provide the Department of Agriculture's comments 
on S. 546, the Paleontological Resources Preservation Act. 
During the 107th Congress, the Department supported the purpose 
of a very similar bill and provided some recommended changes to 
committee staff. I am pleased to see that some of the 
Department's concerns were addressed in S. 546.
    The Department supports the purpose of this bill, but 
again, we would like to work with the subcommittee on a few 
additional aspects. Unified guidelines for paleontological 
resource management are greatly needed on National Forest 
System lands. Forest users are demanding opportunities for 
recreation, education, interpretation, and scientific study of 
fossils. As these legitimate demands increase, so does the 
amount of illegal activity like theft and vandalism.
    The Forest Service currently manages paleontological 
resources under a patchwork of laws that don't specifically 
address their unique characteristics, nor do they provide 
adequate management and protection of the resource. In 1996, a 
case involving fossil theft on the National Forest System lands 
in California, which was prosecuted under civil law by the 
Department of Justice, pointed out the need for more specific 
statutes and regulations related to the theft of Federal 
fossils. It is really a big problem. Between 1991 and 1996, a 
third of all the fossil sites inventoried on the Ogalala 
National Grasslands in Nebraska were found to have been 
vandalized, and that is probably not an unusual statistic. The 
stories that those fossils could have told will now never be 
heard. The values lost to science and the public is poorer for 
it.
    The Forest Service needs the additional authority that S. 
546 provides to manage and protect paleontological resources. 
If enacted, the bill would establish noncommercial collection 
provisions, including permitting requirements for scientific 
and educational purposes using uniform and consistent criteria. 
An important aspect of this bill from the Forest Service's 
perspective is its formal recognition of casual collecting of 
invertebrate and plant fossils for recreational noncommercial 
use. It allows noncommercial recreational collecting without a 
permit, unless there is some overriding land use designation.
    S. 546 provides uniform criminal and civil penalties for 
theft and damage to paleontological resources. There is some 
language in section 11 that specifies a maximum reward amount, 
and we do believe that it is better left unstated and allow the 
amount to be set based on the significance of each case and the 
need for such assistance.
    Mr. Chairman, paleontological resources, especially 
vertebrate fossils, are heritage resources. They are evidence 
of the past history of life on earth. They provide 
opportunities for the public to learn more about ancient 
earth's ecosystems and the development of life from research 
and study of these resources. The Paleontological Resources 
Preservation Act would help secure the authority for the Forest 
Service to manage and protect all paleontological resources on 
the National Forest System.
    This concludes my statement. I would be happy to answer any 
questions.
    [The prepared statement of Ms. Estill follows:]

    Prepared Statement of Elizabeth Estill, Deputy Chief, Programs, 
     Legislation and Communication, Forest Service, Department of 
                              Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to be here today. I am Elizabeth Estill, Deputy Chief for 
Programs, Legislation and Communications, USDA Forest Service. I will 
provide the Department's comments on S. 546, the Paleontological 
Resources Preservation Act.
    During the 107th Congress, the Department supported the purpose of 
S. 2727; a similar bill also entitled the Paleontological Resources 
Preservation Act, and provided some recommended changes to the 
committee staff. I am pleased to see some of the Department's concerns 
addressed in S.546. The Department supports the purpose of the bill, 
but we would like to work with the Committee to address some of our 
other recommendations.
    Unified guidelines for paleontological resources management and 
special protection for vertebrate paleontological resources are greatly 
needed on National Forest System lands. Forest users, amateurs and 
scientists alike, are demanding opportunities for recreation, 
education, interpretation, and the scientific study of fossils. As 
these legitimate demands increase so does the amount of illegal 
activity such as theft and vandalism. Therefore, clearly defined, 
consistent laws and penalties to deter theft and vandalism of fossils 
from federal lands are also needed.
    The Forest Service currently manages paleontological resources 
under a patchwork of laws that do not specifically address their unique 
characteristics nor provide adequate management and protection of the 
resource. These laws include the Organic Administration Act of 1897, 
the Archaeological Resources Protection Act of 1979, and the Federal 
Cave Resources Protection Act of 1988. The later statutes only protect 
paleontological resources when they are associated with archeological 
resources, or when they occur in caves, respectively.
    A consistent statutory framework will enhance overall management of 
paleontological resources on National Forest System lands. Between 1991 
and 1996, one-third of all fossil sites inventoried in the Oglala 
National Grassland in Nebraska were found to have been vandalized, and 
as a result, valuable data was lost to science and to the public. In 
1996, a case involving fossil theft on National Forest System lands in 
California, which was prosecuted under civil laws by the Department of 
Justice and ultimately settled out of court, pointed out the need for 
more specific statutes and regulations related to the theft of federal 
fossils.
    S. 546 directs the Secretary of the Interior and the Secretary of 
Agriculture to manage and protect paleotontological resources using 
scientific principles. The bill recognizes the non-renewable nature of 
fossils and defines paleontological resources as fossilized remains 
preserved in or on the Earth's crust. This distinguishes these 
resources from archeological resources, covered under the 
Archaeological Resources Protection Act (ARPA); cultural items, covered 
under the National Historic Preservation Act and the Native American 
Graves Protection and Repatriation Act (NAGPRA); and mineral resources.
    If enacted, the bill would establish casual collection provisions 
including permitting requirements for scientific and educational 
purposes using uniform and consistent criteria. S. 546 recognizes that 
paleontological resources are federal property, and that the fossil as 
well as the associated field data and other records will be preserved 
and made available to the public. An important aspect of this bill to 
the Forest Service is its formal recognition of casual collecting of 
invertebrate and plant fossils for recreational, non-commercial use as 
a valid public activity on National Forests System lands for which a 
permit may not be required where the collecting is not inconsistent 
with the laws governing the management of National Forest System lands 
and S. 546.
    S. 546 provides important uniform criminal and civil penalties for 
all the federal managing agencies for theft and damage of 
paleontological resources. Currently, there is a complex mix of laws, 
regulations and guidelines that have created significant 
jurisprudential challenges. For example, for the Forest Service, 
violations of regulations protecting paleontological resources are 
Class B Misdemeanors, punishable by up to six months imprisonment, or 
$5,000 fine, or both. For the Bureau of Land Management, violations are 
Class A Misdemeanors, punishable by up to one year imprisonment, or 
$100,000 fine, or both. The penalties defined in S. 546 are also 
consistent with recent amendments to the federal sentencing guidelines 
of the U.S. Sentencing Commission for increased penalties for cultural 
heritage resources.
    S. 546 also provides that the proceeds arising from civil and 
criminal penalties established under the bill may be available for 
payment to those who provided information in investigations that lead 
to the civil violations or criminal convictions for which the penalties 
were assessed.. However, the current reward language in Section 11 
provides a maximum reward amount that we believe will be ineffective in 
most cases. We believe that the appropriate reward amount to be offered 
or paid for assistance in investigations is best determined by the 
agency and prosecutor based on the significance of the case and 
assistance provided or needed. We recommend that references to any 
dollar amount be removed. Further, the Forest Service currently has 
differing regulations at 36 CFR 262.1 which regulate the payment of 
rewards along with other Department of Justice protocols.
    Mr. Chairman, paleontological resources, especially vertebrate 
fossils, are heritage resources. They are evidence of the past history 
of life on Earth. They provide opportunities for the public to learn 
more about ancient Earth ecosystems and the development of life from 
research and study of these resources. The Forest Service is a steward 
of these heritage resources and is committed to their protection while 
providing opportunities for research, education, and recreation. The 
Paleontological Resources Preservation Act would help secure the 
authority of the Forest Service to manage and protect all 
paleontological resources on National Forest System lands.
    This concludes my statement. I would be happy to answer questions.

    Senator Thomas. Okay. Thank you. Senator, let's do this a 
little differently. Let's just take each bill and see if we 
have questions on the bill as we go. Would that be all right?
    The first one I have listed is the Buffalo Soldier Act. It 
is my understanding that the Department is not in favor of 
passage of that bill, is that correct?
    Mr. Ross. That's correct, sir.
    Senator Thomas. What are your basic criteria for what 
belongs in a Federal park site that you indicate this one 
probably does not?
    Mr. Ross. Well, sir, to the best of my knowledge there has 
been no study of this to determine suitability or feasibility. 
We normally will go through a study of various areas as 
proposed to identify whether they are feasible, suitable, and 
they meet the criteria of national significance. We have not 
done so in this particular case.
    Senator Thomas. Okay. I suppose the criteria of national 
significance is a little difficult. I would like to see--do you 
have a list of the criteria that you could give us sometime?
    Mr. Ross. I would be glad to provide that for the record, 
Senator.*
---------------------------------------------------------------------------
    * The criteria has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Thomas. That would be great. I would like to see 
that.
    Mr. Ross. I might just add, Senator, by all means we 
recognize the significance of the Buffalo Soldiers and the 
contributions they made to the history of this country and the 
important role they played, but we would just add that to the 
statement, please.
    Senator Thomas. Okay. Thank you.
    Senator Akaka. Thank you, Mr. Chairman. Mr. Ross, with 
respect to S. 499, relating to the Buffalo Soldier Memorial, I 
believe you indicated that the administration does not support 
the bill because it provides that the National Park Service may 
end up having to provide for its maintenance and upkeep. As I 
understand the bill, the American Battle Monuments Commission 
would be authorized to collect private funds to build a 
memorial. Now, if the bill were changed to eliminate the 
possibility that the Park Service might have to maintain the 
memorial, would that address the administration's concern?
    Mr. Ross. Senator, Yes, I believe it would, because it 
would then preclude responsibility for it coming to the 
National Park Service. Again, we would point out we believe 
there is a significant story to talk about and to share with 
the American people, but we don't feel it's appropriate for the 
National Park Service.
    Senator Akaka. Thank you.
    Senator Thomas. The next bill is S. 546, paleontological 
resources--we need to amend the name, don't we, so it's easier 
to say----
    [Laughter.]
    Senator Thomas. What you mentioned, and I understand, I 
think, Ms. Estill, you mentioned the difficulty of enforcing 
regulations, or putting in the regulations. Is it a matter of 
describing them or enforcing them?
    Ms. Estill. Well, we currently manage under about three 
different pieces of legislation, which really aren't specific 
to the fossil resource. One refers to other heritage resources, 
like archaeological resources, and we can do some undercave 
protection. I mean, there are a number of things that we 
operate under, but nothing that is really specific to this 
fossil resource.
    One of the things this does is define it and actually 
clarify a lot of piecemeal actions that both agencies are 
taking, both Departments are taking.
    Senator Thomas. We have one of these fossil fields in 
Wyoming, as a matter of fact, and it's fairly large----
    Ms. Estill. Yes, you do.
    Senator Thomas [continuing]. So I think we have a little 
bit of a problem enforcing, and I know the local police fly 
airplanes over once in a while to see what is happening, but--
so, it's interesting.
    Ms. Estill. This would help a whole lot in successful 
prosecution, which then would help in deterring that kind of 
criminal activity.
    Senator Thomas. But your intention is to define those 
things that are acceptable for just pick-up and those that are 
off?
    Ms. Estill. Absolutely, and make it permissible with no 
question to allow some amateur collecting.
    Senator Thomas. I see. Okay. Senator.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Kearney, I would like to take a minute to clarify the 
Department of the Interior's position on S. 546. As you know, 
the bill is based on recommendations from a report prepared 
three years ago by the Department of the Interior and the 
Department of Agriculture. In the last Congress, the Department 
testified in support of the concept of the bill, but wanted 
additional changes. I have tried to incorporate almost all of 
the Department's suggestions from last year. Your testimony 
this afternoon reiterates that the Department again supports 
the purpose of the bill. As I understand your statement, the 
proposed amendments are all either clarifying or technical in 
nature. If the suggested changes are incorporated, am I correct 
to understand that the Department of the Interior will support 
the bill?
    Mr. Kearney. I think, Senator, at this point what is 
important is for us to continue to work with the committee to 
come to a complete resolution on the array of changes that we 
have still, and concerns we still have, and that point, we 
would be in a better position to make it absolutely clear what 
our position is, but certainly, the purposes behind this, 
certainly what it is trying to achieve I think we are all 
absolutely in support of that, and in support of your efforts 
with respect to what the legislation is attempting to achieve 
in its purposes.
    Senator Akaka. Ms. Estill, following up on the question I 
just asked Mr. Kearney, you have also testified that the 
Department of Agriculture supports the purpose of S. 546. Your 
testimony suggests clarifying the reward provisions in the bill 
to be consistent with existing policy. Does the Department of 
Agriculture also support the amendments proposed by the 
Department, and if your recommendations are incorporated, does 
the Department of Agriculture support S. 546?
    Ms. Estill. The simple answer is yes, we still haven't 
worked out all of the nuances with the Department of the 
Interior, but in general we have very few additions or 
suggested changes in this at this point.
    Senator Akaka. Thank you, Mr. Chairman.
    Senator Thomas. S. 643, in addition to the Hibben Center, 
this is a cooperative thing between the university and the Park 
Service, is that correct?
    Mr. Ross. Yes, sir.
    Senator Thomas. What size of an expansion are you talking 
about?
    Mr. Ross. Well, Senator, this has been in the works for 
some time as a means, working cooperatively with the University 
of New Mexico, which was certainly facilitated by a very 
generous contribution years ago by Dr. Hibben in the amount of, 
I believe, $4 million to help establish this facility. The 
total square footage for the Hibben Center is estimated to be 
just under 40,000 square feet. Of that, the National Park 
Service would be using 14,000 feet, so about, a little bit 
under, I believe.
    Senator Thomas. You mean after the expansion?
    Mr. Ross. After the expansion, that would be the amount 
that would be used by the Park Service to store archaeological 
resources.
    Senator Thomas. And it's managed by the university?
    Mr. Ross. Yes, sir.
    Senator Thomas. And we're paying 37\1/2\ percent of the 
cost?
    Mr. Ross. We would be paying costs associated with the 
construction of that, plus funding to help with the ongoing 
maintenance of that particular facility.
    Senator Thomas. I see. Okay. S. 677 is the Black Canyon 
National Park and Boundary Adjustment. This is a rather 
significant amount of acreage--what is it, 7,000?--in the 
conservation area, 7,000 acres. What does a conservation area 
mean?
    Mr. Ross. Well, the conservation area, I believe, is a 
portion that is the component of the Bureau of Land Management 
area. Is that--I'm sorry, I'm not clear on your question.
    Senator Thomas. What is it? Is it like an easement? What 
are the restrictions on a conservation area?
    Mr. Ross. Well, you're referring, sir, to the BLM area?
    Senator Thomas. Apparently, the 7,000 acres, yes, that's in 
the conservation as opposed to the Black Canyon Park----
    Mr. Ross. Perhaps I could call a representative of the 
Bureau of Land Management to answer that particular question, 
who is more familiar with that than I am.
    Mr. Juen. The national conservation area is an area that is 
legislated by Congress, and it has specific provisions in it 
for what resources would be protected, and in there it would 
identify by the specific legislation what those restrictions 
would be, and what would be allowed, what activities would be 
allowed.
    Senator Thomas. So this is purchase of private land to be 
converted to conservation?
    Mr. Juen. Of that, most of that has already been acquired 
through an exchange process with private landowners where an 
exchange was already conducted.
    Senator Thomas. I see, so what are we talking about, then, 
just putting it in a category?
    Mr. Juen. Including it into the national conservation area 
boundary.
    Senator Thomas. I see. And the 2,700 acres is in the Park 
Service, then?
    Mr. Ross. Yes, sir. This would involve both the 
conservation area and the part administered by the National 
Park Service.
    Senator Thomas. This has been going on for quite a while, 
hasn't it, these changes in the Black Canyon?
    Mr. Ross. I believe that's correct, sir.
    Senator Thomas. I remember hearing about them every year.
    Okay, any questions on that one, sir?
    Senator Akaka. No questions, Mr. Chairman.
    Senator Thomas. I guess designation of the Kris Eggle 
Center, that's simply a name change.
    Mr. Ross. Yes, sir.
    Senator Thomas. There doesn't seem to be any controversy 
about that.
    Senator Akaka. Mr. Chairman, Senator Levin has submitted a 
statement in support of S. 1060, the Organ Pipe Cactus National 
Monument Visitors' Center designation, which he has asked to be 
included in the record.
    Senator Thomas. Certainly. That will be included without 
objection.
    [The prepared statement of Senator Levin follows:]

   Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan

    I thank Senator McCain for introducing legislation (S. 1060), which 
I have recently co-sponsored, that would rename the visitor center at 
Organ Pipe National Monument in Arizona after Kris Eggle. As the 
members of the committee are aware, Kris was fatally wounded in the 
line of duty at Organ Pipe Cactus National Monument on August 9th, 2002 
when he was shot trying to interdict drug traffickers. Kris was 28 
years old.
    Kris grew up in my home state of Michigan and graduated as 
valedictorian of Cadillac High School in 1991. An All-American cross-
country runner while in high school, he attended the University of 
Michigan where he graduated with honors in 1995. When speaking at his 
funeral, his high school teammate Paul McMullen remarked of Kris, ``He 
set the bar.''
    Following graduation, Kris showed the same dedication to his job 
with the National Park Service. Initially assigned to Sleeping Bear 
National Lakeshore, he was reassigned to Organ Pipe Cactus National 
Monument in 2000. He loved his job as a park ranger. In fact, he was so 
dedicated that he once missed a function at which he was to receive an 
award. He remarked, ``I want to get back to Organ Pipe. I want to get 
back to my job. I want to get back to my co-workers. I want to get back 
and do the job that I have been hired to do.''
    Kris arrived at work on that fateful day anxious to get out and do 
his job. When Mexican police reported that armed fugitives had fled 
across the border into the U.S. he responded without hesitation with 
three U.S. border officials. Pursuing the fugitives on foot, they were 
able to apprehend one of them. However, in the attempt to catch the 
other two, Eggle was ambushed and shot by one of the suspects with an 
AK-47.
    Much is made of the sacrifices people make for our nation. Kris 
made the ultimate sacrifice. Each year, over 300,000 people travel to 
Organ Pipe to view the dramatic desert wilderness. Kris perished 
fighting to ensure that these visitors remain safe while they enjoy the 
beauty of one of our nation's finest parks. I can think of no better 
tribute to this fine young American and to the men and women like him 
who work in our parks and protect our borders rededicating the visitor 
center in his name. Again, I am grateful to Senator McCain for his 
initiative.

    Senator Thomas. This is the officer who was killed in an 
illegal crossing of the border?
    Mr. Ross. Yes, he was. Yes, and this has been something 
that we feel would be very appropriate to his memory. We've 
been in touch with his parents, who are very supportive of 
this, and believe this is a great way to commemorate his 
memory.
    Senator Thomas. About a year ago, I believe.
    Mr. Ross. Yes, sir.
    Senator Thomas. The Park Service Director was in Wyoming 
and had to head out for the funeral, as I recall.
    Mr. Ross. I believe she was with you, sir, on the trail 
ride and had to depart for the site.
    Senator Thomas. Yes, that's right. Very good.
    The easement to the Lewis and Clark Interpretive Center 
sounds pretty reasonable. There's no question on that.
    Let's see, 2003 is the Carter Woodson home. What would that 
become, then? That would become a National Park Service unit?
    Mr. Ross. Yes, sir, it would. If it were enacted into law, 
it would become a park service unit administered by the 
National Park Service.
    Senator Thomas. And you're supportive of that.
    Mr. Ross. No, sir.
    Senator Thomas. You're not.
    Mr. Ross. We support, in fact, that this is worthy of 
designation, but we also recognize that we have other 
commitments to deal with the operation and maintenance backlog, 
and we recommend a deferral on this through the next Congress, 
sir.
    Senator Thomas. I see. Okay. You do have a backlog.
    Mr. Ross. Yes, sir, we do have a backlog.
    Senator Thomas. All right. Any question on that?
    Senator Akaka. Mr. Chairman, no questions, but I would like 
to do one last thing. I would like to recognize my three 
interns from my office who are here in the audience from 
Hawaii, and I would like to ask them to stand as I call your 
name. Alyssa Ellis, Sean Tamura-Sato, and Vanessa Quiban. These 
are my interns.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Very good. We're happy to have you here. 
Someone suggested we name Senator Akaka's office after you.
    [Laughter.]
    Senator Thomas. Okay, well, thank you for being here, and 
your assistance. Any other questions, sir?
    Senator Akaka. No questions.
    Senator Thomas. If not, the committee is adjourned.
    [Whereupon, at 3:15 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Hon. Doug Bereuter, U.S. Representative From Nebraska
    Chairman Thomas, Senator Akaka, and members of the Subcommittee: I 
am pleased to have this opportunity to offer testimony in support of 
H.R. 255. This is a non-controversial, but very necessary bill and it 
has the support of the National Park Service. The legislation would 
simply grant an easement to Otoe County in Nebraska allowing it to 
build an access road to the Missouri River Basin Lewis and Clark 
Interpretive Trails and Visitors Center which is now under construction 
at a site adjacent to Nebraska City, Nebraska. The road will be built 
and maintained by the county.
    I originally introduced this legislation during the 107th Congress 
when it became clear that the National Park Service could not grant 
this easement without congressional action. Otoe County has agreed to 
construct and maintain the access road. The House approved this 
legislation by voice vote on May 14, 2003.
    When completed, the access road facilitated by H.R. 255 will lead 
visitors from the State Highway Route 2 Expressway to an outstanding 
Lewis and Clark interpretive center. The center is scheduled to be 
completed in early 2004 with the grand opening set on July 30, 2004, 
which coincides with the Lewis and Clark signature event in Nebraska at 
historic Fort Atkinson, the site of the famous ``Council Bluff'' in 
Nebraska where Lewis and Clark had their first council with Native 
American leaders.
    I believe that passage of H.R. 255, will play a small, but vital 
role in permitting ready access to the new visitors center and thus 
increase the attention to the bicentennial activities. As someone with 
a long-standing interest in the Expedition and a co-chair of the Lewis 
and Clark Bicentennial Congressional Caucus, I encourage the 
Subcommittee to act favorably and expeditiously on this bill.
                                 ______
                                 
   Statement of Hon. Pete Hoekstra, U.S. Representative From Michigan

    Thank you, Chairman Thomas, for allowing me to submit my testimony 
to the Senate Subcommittee on National Parks on H.R. 1577, a bill to 
designate the visitors' center at Organ Pipe Cactus National Monument, 
Arizona, as the ``Kris Eggle Visitors' Center.''
    I co-sponsored H.R. 1577 with Congressman Tom Tancredo of Colorado 
to memorialize the life of Kris Eggle, a National Park Service Ranger 
who was murdered last August in Organ Pipe Cactus National Monument, a 
National Parks Service unit deep in the American Southwest.
    The legislation designates the Organ Pipe visitors' center in Kris' 
name to honor his memory and legacy.
    Kris was a 28-year-old National Park Ranger assigned to Organ Pipe 
at the time of his tragic death on Aug. 9, 2002, while helping to chase 
two Mexican nationals suspected to killing four people over a drug 
debt. Organ Pipe National Monument is considered the most dangerous 
National Park Service posting, according to the July 2002 survey of 
park rangers. Last year, Park Rangers seized nearly 750,000 pounds of 
drugs in the park.
    In February 2003, Congressman Tancredo and I visited Organ Pipe to 
witness firsthand how severe conditions are at the U.S.-Mexico border 
that led to Kris' death. Kris was the best of the best, graduating 
valedictorian of Cadillac High School in 1991. He was an accomplished 
cross-country runner at Cadillac High School and went on to be a top 
cross-country runner at the University of Michigan, where he graduated 
with honors in 1995.
    After graduation, he chose government service as the field in which 
he was to commit his life, and subsequently joined the National Parks 
Service. He started at Sleeping Bear Dunes National Lakeshore, where he 
served as a ranger on both North and South Manitou Island. He had been 
stationed in Arizona since 2000. People who knew Kris said that he had 
one of the brightest futures possible in the Parks Service.
    I encourage the subcommittee to move quickly on this legislation so 
that we can post this tribute to Kris at a place that was very special 
to him.
    Again, Chairman Thomas, thank you for your consideration of my 
testimony.
                                 ______
                                 
       Statement of Hon. Thomas G. Tancredo, U.S. Representative 
                             From Colorado

    Thank you for the opportunity to submit testimony to the 
Subcommittee in support of both H.R. 1577, and S. 160. Both bills would 
name the Visitor Center in Organ Pipe Cactus National Monument in 
Arizona for Kris Eggle, a Park Ranger who lost his life in the line of 
duty last summer.
    I like to thank the distinguished Senator from Arizona, Mr. McCain 
who has been instrumental in helping to move this legislation. I would 
also like to thank Chairman Radanovich and Chairman Pombo on the House 
side for their work on fixing a few technical and drafting errors in 
the original version of the legislation before House passage, and I 
thank Senator Thomas for his willingness to allow for consideration of 
the bill today.
    Mr. Chairman, Kris Eggle was a brilliant young park ranger in one 
of the most beautiful units of the National Park system, when he was 
killed last summer by a drug smuggler who had crossed into the United 
States after committing two murders in Mexico.
    Last August, Kris and three U.S. Border Patrol officers responded 
after Mexican police reported that two armed fugitives had fled across 
the border into the U.S. A border patrol helicopter directed Eggle and 
the other officers to the location where the suspects had abandoned 
their vehicle. Kris pursued the smugglers on foot, apprehending one 
suspect before he was shot and killed. Kris was only 28 years old.
    I have personally visited Organ Pipe Cactus National Monument on 
numerous occasions, as I know Senator McCain has. And I am certain that 
he would agree with me that ``Organ Pipe''--as it is often called--is 
one of the most strikingly beautiful units in the National Park system. 
It is, unfortunately, also one of the most dangerous.
    According to the Fraternal Order of Police, it is a hotbed of 
illegal activity, a major thoroughfare for illegal aliens, and an area 
that is used heavily by drug smugglers. Just last year, some 200,000 
illegal border-crossers and 700,000 pounds of drugs were intercepted at 
the park. This constant danger is something that rangers like Kris--who 
at this very moment are patrolling the vast and remote expanses of the 
Monument--have unfortunately become accustomed to.
    Kris, like many BLM, Parks Service, and Forest Service law 
enforcement officers, was on the front lines on a battlefield we pay 
far too little attention to. He gave his life in service to this 
country, and we should all be proud of his heroism, and we should not 
forget.
    By passing this bill today, this committee can help us to both 
memorialize Kris' personal sacrifice to this nation, and remind the 
American people of the perils faced, and sacrifices made by those 
public lands law enforcement officers who work each day to patrol our 
Parks, Refuges, and Forests--particularly those located along our 
increasingly dangerously porous international borders.
    Thank you again, Senator Thomas and members of the subcommittee.
                                 ______
                                 
  Statement of The Society of Vertebrate Paleontology, Northbrook, IL

    We are very honored to testify on behalf of our more than 2000 
professional and amateur members in support of S. 546, The 
Paleontological Resources Preservation Act. A heightened public 
interest in dinosaurs and other extinct life forms has given 
paleontologists an unprecedented opportunity to share with the public 
the excitement of recent advances in this fascinating science that 
records the history of life on our planet. Dinosaurs and fossils are 
now the window through which most young children get their first 
introduction to science, inspiring a life-long interest in science. 
White it is gratifying that the public has become more interested in 
the history of life on our planet, and while paleontologists have been 
eager to share this knowledge, heightened visibility has also led to 
the increased commercialization and deliberate destruction of fossils. 
This has led to a black market trade in fossils from foreign countries 
(in violation of export laws) and to the theft of fossils from public 
and private lands in the United States.
    There are several points that should be made regarding S. 546. 
First, the bill does not change any current aspect of access to fossils 
on public lands on the part of amateurs, educators, or professional 
scientists. It does codify into uniform guidelines current land 
management authority and practice. What it does do is increase the 
awareness of the cooperative spirit of amateurs and professionals and 
provides for stronger penalties for those who would destroy or 
permanently remove valuable fossils from our public heritage. The bill 
has no impact on private lands or on privately owned fossils. The bill 
essentially raises the ethical awareness and standards for preserving 
fossils that come from public lands. The legislation would adopt the 
basic principles endorsed by an interagency report requested by 
Congress published in 2000, ``Report of the Secretary of Interior: 
Fossils on Federal and Indian Lands.''
    We do need stronger penalties for theft and destruction of fossils 
from public lands. Sadly, some of the most egregious cases of theft and 
vandalism have occurred on federal lands belonging to all Americans.
    In 1991, the BLM discovered an illegal commercial collection taking 
place on federal land. The BLM contacted the Museum of the Rockies at 
Montana State University Bozeman and asked them to collect the specimen 
and hold it in the public trust. As a result of this, the most complete 
Allosaurus ever found, which this commercial collector intended to sell 
to a private collector overseas, now has been save for all the people 
of the United States. As a result of careful analysis of injuries 
sustained by this dinosaur and preserved in the bones, this particular 
specimen has yielded a treasure trove of information about how 
Allosaurus lived. The commercial collector, who had attempted to steal 
this fossil and the information it tells us, was never prosecuted.
    Unfortunately, the American people were much less fortunate in the 
case of another Allosaurus find. In a case filed in court last fall 
prosecutors alleged that an Allosaurus skeleton was stolen from federal 
land southeast of Freemont Junction, Utah and sold to a Japanese buyer 
for $400,000. A BLM official stated at the time of the filing of the 
complaint that ``Because it was crudely collected, we have lost any 
chance to study the way the skeleton lay in the ground, how it was 
buried, what happened to it after death, and other plants or animals 
that may have been buried with it. We have lost a priceless piece of 
America's natural heritage.'' According to allegations in the still 
pending civil complaint, Barry James was contacted by Rocky Barney of 
Richfield, Utah. Barney told James he had found what appeared to be an 
Allosaurus on federal land. Barney asked James if he would be 
interested in buying the Allosaurus. James told Barney he would be 
interested in buying the fossil and offered advice on how to excavate 
the dinosaur. James privately told Brown that while it was illegal to 
remove a fossil from federal land, it was worth the risk. If caught, 
they would only receive a ``slap on the wrist,'' the complaint charges. 
(BLM, 2001)
    The rapidly increasing commercial value of fossils has created a 
situation where the limited penalties that exist are not sufficient to 
deter illegal collecting. In the Report ``Fossils on Federal and Indian 
Lands'' it was noted that ``the fines currently imposed on fossil 
thieves are usually low compared to the lost resources. For example, 
one man who had stolen fossils from a national park over a period of 
years was fined a total of $50.'' (Babbitt, 2000 p. 29)
    In many cases the theft of fossils is which is occurs is so 
widespread and occurring so rapidly that we do not even know what is 
being lost. In a study commissioned by the Forest Service, it was found 
that almost one-third of the paleontological sites surveyed in the 
Oglala National Grassland showed evidence of unauthorized collecting. 
In 1999, the National Park Service identified 721 documented incidents 
of paleontological resource theft or vandalism, many involving many 
specimens, in the national parks between 1995 and 1998. (Babbitt, 2000 
p. 28)
    The increased commercial market for fossils worldwide has sometimes 
led to distortion of the fossil record. In some cases fossils have been 
altered in order to inflate their commercial value. And we have lost 
significant specimens from further scientific investigation and 
exhibit, making it harder for people to see and examine for themselves 
the authentic objects in our museums. It is critical that 
scientifically significant fossils from federal lands, i.e. that 
portion of the fossil record that belongs to the American people, 
remain in the public domain so that everyone--children and adults, 
amateur and professional paleontologists may benefit from this 
irreplaceable resource.
    The fossil record is our only way of learning about the history of 
past life on our planet, and it is important for all Americans to have 
the opportunity to learn from this record. We have talked with many 
scientists in various disciplines, and it is amazing how many first 
became interested in science through their interest in dinosaurs and 
other fossils. For this reason we are happy to see that S. 546 calls 
for the establishment of a program to increase public awareness about 
the significance of paleontological resources. As we confront important 
public policy issues including global climate change and the extinction 
of countless species of animals and plants the fossil record pro-ides a 
critical historical basis to help guide our decisions.
    We would like to share a little bit of information with you about 
how paleontological research is done and why this legislation is 
essential to ensuring maximal public benefit from this research.
    Many kinds of fossils, including those of most vertebrates 
(backboned animals), are rare for several reasons. Many organisms are 
not readily preserved as fossils because they do not have hard parts. 
Only rather unusual sedimentary rock environments preserve soft parts 
long enough to become fossilized. Also, organisms can only be preserved 
where sediments accumulate at a fairly high rate. Most organic remains 
are not buried fast enough to contribute to the fossil record. 
Vertebrate fossils are much less common than invertebrate and plant 
fossils across all sedimentary rocks. Although we are fortunate to have 
some exceptions, spectacular deposits of diverse and complete organisms 
are rare over the history of the earth. The majority of fossil 
vertebrate species are extremely rare or are represented by a single 
unique specimen. For these reasons the chances of any vertebrate 
becoming a fossil are very small. Thus, individual vertebrate fossils 
are extremely valuable as bearers of information about the past. 
Furthermore, fossils of extinct groups are not renewable. More fossils 
will be discovered and collected, but always from a finite supply. 
Importantly; more than 99% of all life-forms that have ever lived on 
Earth are already extinct and are only known by fossils.
    The rocks in which the fossils are found provide information about 
ancient environments and their climates, the age of the fossils, 
position in a historical sequence, and paleogeographic location. Fossil 
assemblages provide information about ecological interactions and 
communities.
    A fossil collected without this information has lost much of its 
value, and we know little more than that this animal lived and died. In 
contrast, when contextual data are collected and studied, we begin to 
understand how the animal lived and its place in the balance of nature. 
As paleontologists and geologists learn more ways to interpret ancient 
environments and ecological communities from fossil assemblages in 
their original context, this information becomes more and more valuable 
and important. These contextual data allow us to bring these animals to 
life for ten of millions of visitors to our museums and to the many 
young children who have hands-on experience with original specimens.
    The understanding of evolutionary processes and relationships comes 
primarily from comparing the skeletons from different animals to each 
other. In order to do this; researchers must be able to compare new 
specimens with those previously unearthed. Oftentimes a new analysis 
many years later shows our earlier understanding was incomplete or 
mistaken. For example, when Dr. John Ostrom was doing research on 
Deinonychus, a dinosaur similar to the Velociraptor popularized in 
Jurassic Park, he found that a specimen thought to be a carnivorous 
dinosaur was actually the rare early bird Archaeopteryx. Ostrom's 
research was critical in establishing the link between dinosaurs and 
birds that became a proudly recited fact for every young dinosaur 
aficionado. Only when specimens are properly collected and permanently 
preserved in public institutions can researchers access these specimens 
in order to make these comparisons. And when these comparisons and 
interpretations are made, education and the general public greatly 
benefit by having access to this new interpretive knowledge through 
media reports, books, and the Internet.
    Several years ago, the Society of Vertebrate Paleontology (SVP) 
added a Statement of Ethics to our bylaws to help the society and its 
members handle ethical issues such as those raised by increasing 
commercialization. Ted Vlamis, an SVP member and amateur 
paleontologist, summarized the SVP Ethics Statement and a subsequent 
Joint Position Statement by the Paleontological Society as follows: 
``The SVP Ethics Statement contains several principles that are 
particularly noteworthy for their public policy implications. It begins 
by recognizing that vertebrate fossils are usually unique or rare, and 
that they are part of our natural heritage. The Ethics Statement 
assigns to vertebrate paleontologists the responsibility of ensuring 
that pertinent detailed contextual data are recorded when vertebrate 
fossils are collected and notes that collection and preparation should 
be done by properly trained personnel. The importance of proper 
curation and the assurance of access for future researchers are 
recognized by the Ethics Statements' provision that scientifically 
significant vertebrate specimens should be curated and accessioned in 
institutions charged in perpetuity with conserving fossil vertebrates 
for scientific study and education. The Ethics Statement further 
recognizes the responsibility of paleontologists to expeditiously 
disseminate information to other paleontologists and to the general 
public. Perhaps the most important part of the SVP Ethics Statement 
from a public policy perspective is the conclusion that ``The barter, 
sale, or purchase of scientifically significant vertebrate fossils is 
not condoned unless it brings them into, or keeps them within, a public 
trust'' (SVP, 1994).
    In order to ensure that the SVP's public policy recommendations and 
initiatives regarding fossils on federal lands were also reflective of 
the wider paleontological community, the SVP initiated a dialogue with 
the Paleontological Society. Together these two scientific societies 
include several thousand individuals, representing more than 94% of 
professional paleontologists and a very large proportion of amateur 
paleontologists. This dialogue culminated in 1999 when the two 
societies issued the joint position statement Paleontological Resources 
on U.S. Public Lands. The PS-SVP joint statement advocates public 
policy which, like the SVP Ethics Statement, recognizes that fossils 
are part of our scientific and natural heritage. It goes on to find 
that fossils on public lands belong to all the people of the United 
States and that, as such, they need special protection, and should not 
be collected for commercial purposes. The joint statement concludes 
that the two societies strongly support actions which ``protect fossils 
on public lands as finite natural resources; encourage responsible 
stewardship of fossils for educational, recreational, and scientific 
purposes; promote legitimate access to, and responsible enjoyment of, 
paleontological resources on public lands by the public and amateur 
paleontologists for personal use, and by the professional 
paleontological community, including professional paleontologists from 
outside the U.S.; and bring fossils from public lands into public 
institutions where they are available for purposes of education and 
scientific research'' (PS and SVP, 1999).'' (Summary from Vlamis, 2001)
    Similarly, support comes from the American people for the 
provisions of S. 546. A survey of American public opinion was conducted 
in 1995 by Steve Gittleman of MKTG, Inc., a market research firm that 
has conducted over 10,000 studies since its founding in 1979. This 
survey of 300 American adults analyzed public responses both to a 
hypothetical situation involving the discovery of a fossil, and to a 
series of more general questions pertaining to fossils. A random 
calling program was utilized which gave every telephone in the US the 
same probability of being called. The survey results have an accuracy 
rate of +/-7%.
    Several key points that demonstrate public support for the 
principles embodied in S. 546. 85.3 percent agreed with the statement 
that that ``Fossils of animals with backbones are part of our national 
heritage and should be protected in much the same way that 
archeological remains (human artifacts) are now protected''; and, 88.0 
percent agreed that ``If laws are created to restrict the collection of 
fossils on public lands, the only people who should be allowed to 
collect them are people with appropriate skills for doing so and with a 
permit for that purpose. All the fossils that they find should go into 
museums and universities prepared to protect them'' (Vlamis, 2001). The 
American people want our natural heritage preserved as a national 
treasure.
    The membership of the SVP includes amateur as well as professional 
paleontologists, and fostering cooperation between these groups is a 
major mission of the SVP. We are pleased that S. 546 puts no new 
restrictions on amateur fossil collecting on federal lands--everything 
an amateur collector can legally do today would still be legal after 
the passage of S. 546. The Denver Museum of Nature and Science offers 
an example of the substantial cooperation that exists among scientists 
and amateurs. More than several hundred amateur volunteers devote over 
30,000 hours each year of their time to that institution. They have 
collected literally thousands of specimens from public lands that have 
allowed our collections to grow significantly, enabling more scientific 
study and public awareness of paleontology. Last year alone more than a 
dozen of these volunteers either published a scientific paper on 
fossils in a peer-reviewed scientific journal or presented a paper at 
an annual meeting of a professional scientific society. Some of these 
amateurs also published on an entirely new dinosaur species previously 
undiscovered.
    In a poll taken in 1991 of America's major museums, more than 49% 
of the 1.8 million specimens of dinosaurs and other fossil vertebrates 
in their collections were from public lands. Of the overall total, 
amateurs had donated more than 100,000 specimens to museums and 
significantly less than 1% of the specimens came from commercial 
collectors (Stucky and Ware, 1991).
    I spoke earlier of some major problems that are occurring because 
of the lack of a law like S. 546. I would like to conclude by telling 
you about one example of the kind of cooperation between federal 
agencies and paleontologists. Dinosaur paleontologist Jack Homer of the 
Museum of the Rockies at Montana State University, Bozeman, is in the 
fourth year of a field study in the Charles M. Russell National 
Wildlife Refuge in eastern Montana. To date eight Tyrannosaurus rex 
skeletons have been discovered. The field study is yielding valuable 
information about this most famous of the dinosaurs and the environment 
in which it lived. The work of the Museum of the Rockies has made it 
possible for the National Museum of Natural History, Smithsonian 
Institution, to collect one of these specimens. Thus, our National 
Museum will be able to display an actual specimen of this celebrated 
American dinosaur for the first time. The passage of S. 546 will foster 
more and more opportunities like this and inspire the long-term 
preservation of these priceless national resources.

                               References

    Bureau of Land Management. Press Release dated September 4, 2001
    Babbitt, B. 2000. Report of the Secretary of the Interior: Fossils 
on Federal and Indian Lands
    Paleontological Society and Society of Vertebrate Paleontology. 
1999. Joint Position Statement by The Paleontological Society and The 
Society of Vertebrate Paleontology on Paleontological Resources on U.S. 
Public Lands
    Society of Vertebrate Paleontology. 1994. Bylaws, Article 9
    Stucky, R.K., and S. Ware. 1991. Questionnaire concerning fossil 
collecting on Federal Lands. DMNH, Denver.
    Vlamis, T.J., 2001, in Proceedings of the 6th Fossil Resource 
Conference Santucci, V.L. and McClelland, L. (eds) Geologic Resources 
Division Technical Report NPS/NRGRD/GRDTR-01/O1 September 2001


                               Appendix 1

          SOCIETY OF VERTEBRATE PALEONTOLOGY BY-LAW ON ETHICS

Article 9. Statement of Ethics.
    Several goals for the Society of Vertebrate Paleontology follow 
from its mission statement (Constitution Article 1): to discover, 
conserve, and protect vertebrate fossils and to foster the scientific, 
educational, and personal appreciation and understanding of them by 
amateur, student and professional paleontologists, as well as the 
general public. Fossil vertebrates are usually unique or rare, 
nonrenewable scientific and educational resources that, along with 
their accompanying contextual data, constitute part of our natural 
heritage. They provide data by which the history of vertebrate life on 
earth may be reconstructed and are one of the primary means of studying 
evolutionary patterns and processes as well as environmental change.
    It is the responsibility of vertebrate paleontologists to strive to 
ensure that vertebrate fossils are collected in a professional manner, 
which includes the detailed recording of pertinent contextual data 
(e.g. geographic, stratigraphic, sedimentologic, taphonomic).
    It is the responsibility of vertebrate paleontologists to assist 
government agencies in the development of management policies and 
regulations pertinent to the collection of vertebrate fossils, and to 
comply with those policies and regulations during and after collection. 
Necessary permits on all lands administered by federal, state, and 
local governments, whether domestic or foreign, must be obtained from 
the appropriate agency(ies) before fossil vertebrates are collected. 
Collecting fossils on private lands must only be done with the 
landowner's consent.
    Fossil vertebrate specimens should be prepared by, or under the 
supervision of, trained personnel.
    Scientifically significant fossil vertebrate specimens, along with 
ancillary data, should be curated and accessioned in the collections of 
repositories charged in perpetuity with conserving fossil vertebrates 
for scientific study and education (e.g. accredited museums, 
universities, colleges, and other educational institutions)--
    Information about vertebrate fossils and their accompanying data 
should be disseminated expeditiously to both scientific community and 
interested general public.
    The barter, sale, or purchase of scientifically significant 
vertebrate fossils is not condoned unless it brings them into, or keeps 
them within, a public trust. Any other trade or commerce in 
scientifically significant vertebrate fossils is inconsistent with the 
foregoing, in that it deprives both the public and professionals of 
important specimens, which are part of our natural heritage.

                               Appendix 2

JOINT POSITION STATEMENT BY THE PALEONTOLOGICAL SOCIETY AND THE SOCIETY 
OF VERTEBRATE PALEONTOLOGY ON PALEONTOLOGICAL RESOURCES ON U.S. PUBLIC 
                                 LANDS

    The Paleontological Society and The Society of Vertebrate 
Paleontology are committed to increasing scientific knowledge, 
educational benefits, and appreciation of the natural world based on 
fossils--for everyone--child or adult, the general public, or amateur 
or professional paleontologists. Fossils are an invaluable part of our 
scientific and natural heritage. They yield detailed information about 
the history, if life and of our planet, and provide lessons for the 
modern world and our future.
    Many important fossil localities occur on U.S. public lands and 
belong to all people of the United States, including future 
generations. The Society of Vertebrate Paleontology and The 
Paleontological Society therefore support the development of policies 
and practices that can be used by different federal agencies to 
regulate the collection of fossils on U.S. public lands in an 
appropriate, clear and consistent manner.
    Many fossils are common (for example, many non-vertebrate fossils) 
and should be allowed to be collected--in a responsible way--by any 
amateur or professional paleontologist, thus allowing them to 
experience and benefit from the excitement of discovery, recovery, 
identification and study. In particular, because of the benefits that 
derive from increased public appreciation of fossils, it is important 
that the participation of amateurs in paleontology is not discouraged 
by Federal policies and practices.
    Other fossils are rare (for example, many vertebrate fossils and 
some non-vertebrate fossils), and require special protection, 
especially from destruction by vandalism or commercial exploitation. In 
particular, because of the dangers of overexploitation and the 
potential loss of irreplaceable scientific information, commercial 
collecting of fossil vertebrates on public lands should be prohibited, 
as in current regulations and policies. The commercial collecting of 
other paleontological resources on U.S. public lands should be strictly 
regulated by permit through the appropriate land management agencies. 
Regulations and polices regarding the collection of paleontological 
resources from U.S. public lands should be strictly enforced.
    In this context, the Council of The Paleontological Society and the 
Executive Committee of The Society of Vertebrate Paleontology strongly 
support actions that:

          i) protect fossils on public lands as finite natural 
        resources,
          ii) encourage responsible stewardship of fossils for 
        educational, recreational, and scientific purposes,
          iii) promote legitimate access to, and responsible enjoyment 
        of, paleontological resources on public lands by the public and 
        amateur paleontologists for personal use, and by the 
        professional paleontological community, including professional 
        paleontologists from outside the U.S.; and
          iv) bring fossils from public lands into public institutions 
        where they are available for purposes of education and 
        scientific research.
                                 ______
                                 
                           American Association of Museums,
                                      Washington, DC, June 9, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Hon. Daniel K. Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Chairman Thomas and Senator Akaka: On behalf of the members of 
the American Association of Museums which include nearly 3,000 museums 
and more than 10,000 museum professionals, I am writing to strongly 
support the passage of S. 546, the Paleontological Resources 
Preservation Act (PRPA).
    Paleontology, like all sciences, requires that its methodology and 
results be repeatable and testable. For observations on fossil 
specimens and their geological context, this can only be done when 
significant fossils upon which those observations are based are placed 
in a public repository (museum or university) allowing access to all 
citizens and researchers.
    The PRPA ensures that publicly owned fossils and their data are 
collected responsibly and maintained within the public trust. It 
further ensures that the American public will continue to benefit form 
the scientific advances made from these materials in understanding the 
history of life on this planet. Spectacular and educationally 
significant public specimens will continue to be exhibited in museums 
for all to enjoy.
    Theft of fossils from public lands by unscrupulous individuals and 
groups for commercial exploitation is seriously eroding the ability of 
our nation's museums to educate the American people and to preserve our 
natural heritage for future generations.
    This bill is the long-needed tool to protect this ability. I urge 
you and your colleagues to support this important legislation.
            Sincerely,
                                        Edward H. Able, Jr.
                                                 President and CEO.
                                 ______
                                 
                                Dry Dredgers, Inc.,
                                     Department of Geology,
                                      Cincinnati, OH, June 5, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks.
    As amateur paleontologists as well as officers of one of the oldest 
and largest associations dedicated to fossil collecting in the United 
States, we, the undersigned, wholly support the passage of S. 546, the 
``Paleontological Resources Preservation Act'', a bill introduced March 
6, 2003 into the Senate of the United States by Senators Akaka, Baucus, 
Campbell, Durbin, Feinstein, Roberts, and Leahy.
    The proposed legislation addresses issues of great concern to our 
members, notably the protection of paleontological resources on Federal 
lands, the systematic compilation of paleontological data, science-
based decision making, and accurate public education.
    America's fossils are non-renewable, they have scientific and 
educational value, and there is intellectual content inherent in them 
that cannot be mined for profit as one might do with oil and other 
mineral resources. America's public paleontology resources require 
responsible stewardship and long-term preservation. The proposed 
legislation provides for such stewardship.
    We strongly encourage the passage of this act.
                                                          John Tate
                                                          Greg Hand
                                 ______
                                 
                                  Cincinnati Museum Center,
                                     Cinncinnati, OH, June 5, 2003.
Senator Craig Thomas,
Chairman, Senate Subcommittee on National Parks.
    Dear Senator and colleagues: As a professional paleontologist with 
an active interest in the rights and responsibilities of amateur 
paleontologists, I'm writing to say that S. 546, the ``Paleontological 
Resources Preservation Act'', is finally the bill that addresses all of 
our needs and the one that we can, and must, all support. I'll say it 
up front:
    EVERYTHING THAT CAN BE DONE LEGALLY ON FEDERAL LAND TODAY, WILL BE 
ALLOWABLE AFTER THE PASSAGE OF THIS BILL!
    That's it in a nutshell. No one should be afraid of this 
legislation unless they plan to steal the natural heritage of the 
people of the United States. It does NOT effect private land. It does 
NOT effect private collections. It does NOT restrict individual rights 
or freedoms. It REAFFIRMS that rare and scientifically significant 
paleontological resources in the public domain should remain the 
property of all Americans and thus be available for our children and 
for future generations. Only the illegal exploitation of public 
property is proscribed. Period.
    What does this bill do for the amateur community? Plenty. It 
encourages the participation of amateurs in the stewardship of fossil 
treasures. It reaffirms their right, and maximizes their opportunity, 
to collect rocks, minerals, and common fossil invertebrates and plants 
on public lands where they may do so today. It lays out a uniform 
policy that lets all collectors know just where they stand in regard to 
the law, rather than their being faced with a multitude of complex and 
confusing policies from each federal land management agency. It also 
fosters paleontological education at all levels. We can all be happy 
with these provisions.
    What does it do to protect rare fossils? It ensures that they will 
be collected under permit by responsible parties, both amateur and 
professional, and be reposited in public collections, just as is 
required today. It mandates that federal managers use appropriate care 
to inventory and monitor these resources for scientific and educational 
use. It requires them to increase public awareness of our fossil 
heritage. Just as archaeologists are consulted for archaeological 
resources, so now paleontologists, professional and amateur alike, will 
be consulted for the management of public fossil resources. 
Partnerships with the general public are to be encouraged. Again, these 
are all good things for everyone.
                                 ______
                                 
                                  Cincinnati Museum Center,
                                     Cinncinnati, OH, June 5, 2003.

    Why is this bill needed? Firstly, to achieve all of the aims listed 
above. Secondly, because the theft of our country's public fossil 
heritage is growing and nonrenewable public resources are increasingly 
at risk. We all know stories of fossils commanding growing prices on 
the commercial market. Sadly, this is also driving a thriving black 
market. Fossils on public lands belong to you and me. We cannot allow 
them to be lost to us through theft, and increasingly, stories about 
high prices for fossils include stories of their theft from public 
lands.
    Let me emphasize that this is NOT a bill to outlaw the sale of 
fossils. There is a legitimate place for commercial collecting and for 
the sale, barter, trade, and private ownership of fossils. Equally, 
there are stories of the great scientific and educational role that 
amateur and commercial collectors have played, and continue to play, 
for the good of paleontology. I applaud this role and expect that it 
will continue. This bill encourages partnership between all sectors of 
the community. The collecting and sale of fossils from private land is 
NOT effected.
    However, the bill does ensure that fossils in the public domain, 
those that now belong to you and me, and to our children and future 
generations, will continue to belong to everyone. I greatly feel this 
need. Responsible dealers and collectors, i.e. the majority of 
paleontology ``enthusiasts'', for I prefer the original French meaning 
of ``amateur''--one with a passion or love for a subject, feel the same 
way.
    Fossils are non-renewable--they can't be grown like forests. 
Fossils have scientific and educational value--there is intellectual 
content inherent in them that cannot be mined for profit as one might 
do with oil and other mineral resources. Public paleontology resources 
require responsible stewardship and long-term preservation. They need 
protection from theft and exploitation. Fossil enthusiasts of all 
levels of experience must have their rights protected and enthusiasm 
encouraged. The ``Paleontological Resources Preservation Act'' does 
just that. Please join me in supporting it.
            Sincerely,
                                   Glenn W. Storrs, Ph.D.,
                                           Director of Science Research 
                                               &
                                           Withrow Farny Curator of 
                                               Vertebrate Paleontology.
                                 ______
                                 
                  Western Interior Paleontological Society,
                                         Denver, CO, June 10, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks.
    Dear Sir: As President of the Western Interior Paleontological 
Society, I would like to express, on behalf of the over 300 members, 
our support of Senate Bill S. 546, the Paleontological Resources Act.
    We, as amateur collectors, strongly believe that strengthening laws 
pertaining to collecting vertebrate paleontological materials is 
important because it preserves those resources for all Americans and 
discourages the poaching of those materials for personal gain.
            Sincerely,
                                   Louis H. Taylor, First Vice 
                                       President
                                   for Thomas C. Nolan, President.
                                 ______
                                 
                  Western Interior Paleontological Society,
                                          Denver, CO, June 9, 2003.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks.
    As the immediate Past President of Western Interior Paleontological 
Society in Denver, Colorado, please put me on record of being very much 
in favor of S. 546.
    I believe this is good and needed legislation and hope the hearing 
regarding this matter will be positive by the Senate committee on June 
10, 2003.

                                                    David J. Warren


</pre></body></html>
